<html>
<title> - FLOOD PREPAREDNESS AND MITIGATION: MAP MODERNIZATION, LEVEE INSPECTION, AND LEVEE REPAIRS</title>
<body><pre>[Senate Hearing 111-1006]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 111-1006
 
                   FLOOD PREPAREDNESS AND MITIGATION:
         MAP MODERNIZATION, LEVEE INSPECTION, AND LEVEE REPAIRS

=======================================================================

                             JOINT HEARING

                               before the

                AD HOC SUBCOMMITTEE ON DISASTER RECOVERY
                AND AD HOC SUBCOMMITTEE ON STATE, LOCAL,
            AND PRIVATE SECTOR PREPAREDNESS AND INTEGRATION

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 28, 2010

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
58-405                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="086f7867486b7d7b7c606d6478266b676526">[email&#160;protected]</a>  


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
CLAIRE McCASKILL, Missouri           JOHN ENSIGN, Nevada
JON TESTER, Montana                  LINDSEY GRAHAM, South Carolina
ROLAND W. BURRIS, Illinois
EDWARD E. KAUFMAN, Delaware

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk
            Joyce Ward, Publications Clerk and GPO Detailee


                AD HOC SUBCOMMITTEE ON DISASTER RECOVERY

                 MARY L. LANDRIEU, Louisiana, Chairman
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
ROLAND W. BURRIS, Illinois           SCOTT P. BROWN, Massachusetts
                      Ben Billings, Staff Director
                  Andy Olson, Minority Staff Director
                       Kelsey Stroud, Chief Clerk


AD HOC SUBCOMMITTEE ON STATE, LOCAL AND PRIVATE SECTOR PREPAREDNESS AND 
                              INTEGRATION

                   MARK L. PRYOR, Arkansas, Chairman
DANIEL K. AKAKA, Hawaii              JOHN ENSIGN, Nevada
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
JON TESTER, Montana                  LINDSEY GRAHAM, South Carolina
                     Donny William, Staff Director
                   Ryan Tully Minority Staff Director
                       Kelsey Stroud, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Landrieu.............................................     1
    Senator Pryor................................................     3
    Senator Tester...............................................     4
    Senator Collins..............................................     4
Prepared statement:
    Senator Landrieu.............................................    41

                               WITNESSES

                        Wednesday, July 28, 2010

Hon. Jo-Ellen Darcy, Assistant Secretary of the Army, Civil 
  Works, U.S. Army Corps of Engineers............................     5
Sandra K. Knight, Deputy Assistant Administrator, Federal 
  Insurance and Mitigation Administration, Federal Emergency 
  Management Agency, U.S. Department of Homeland Security........     7
Hon. Robert Mehlhoff, District 26, Montana House of 
  Representatives................................................    21
David R. Maidment, Director, Center for Research in Water 
  Resources, and Hussein M. Alharthy Centennial Chair in Civil 
  Engineering, The University of Texas at Austin; and Chair, 
  Committee on Floodplain Mapping Technologies, and Chair, 
  Committee on FEMA Flood Maps, National Research Council, The 
  National Academies.............................................    23
Sam Riley Medlock, Policy Counsel, Association of State 
  Floodplain Managers, and Member, National Committee on Levee 
  Safety.........................................................    24
Robert G. Rash, Chief Executive Officer and Chief Engineer, St. 
  Francis Levee District of Arkansas.............................    26
Joseph N. Suhayda, Interim Director, Louisiana State University 
  Hurricane Center, and Chairman, Independent Technical Review 
  Committee, FEMA/USACE Louisiana Storm Surge Study..............    28

                     Alphabetical List of Witnesses

Darcy, Hon. Jo-Ellen:
    Testimony....................................................     5
    Prepared statement...........................................    47
Knight, Sandra, Ph.D.:
    Testimony....................................................     7
    Prepared statement...........................................    56
Maidment, David R., Ph.D.:
    Testimony....................................................    23
    Prepared statement...........................................    64
Medlock, Sam Riley:
    Testimony....................................................    24
    Prepared statement...........................................    69
Mehlhoff, Hon. Robert:
    Testimony....................................................    21
    Prepared statement...........................................    62
Rash, Robert G.:
    Testimony....................................................    26
    Prepared statement...........................................    77
Suhayda, Joseph N., Ph.D.:
    Testimony....................................................    28
    Prepared statement...........................................    80

                                APPENDIX

Map referenced by Senator Landrieu...............................    44
Map referenced by Senator Landrieu...............................    45
Chart referenced by Senator Pryor................................    46
Questions and Responses submitted for the Record from:
    Ms. Darcy....................................................    82
    Ms. Knight...................................................    89
    Mr. Mehlhoff.................................................   102
    Mr. Maidment.................................................   105
    Ms. Medlock..................................................   109
    Mr. Rash with an attachment..................................   118
    Mr. Suhayda..................................................   134


                   FLOOD PREPAREDNESS AND MITIGATION:
         MAP MODERNIZATION, LEVEE INSPECTION, AND LEVEE REPAIRS

                              ----------                              


                        WEDNESDAY, JULY 28, 2010

                                   U.S. Senate,    
              Ad Hoc Subcommittee on Disaster Recovery,    
               Joint with the Subcommittee on State, Local,
           and Private Sector Preparedness and Integration,
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittees met, pursuant to notice, at 3:02 p.m., in 
room 342, Dirksen Senate Office Building, Hon. Mary L. 
Landrieu, Chairman of the Subcommittee on Disaster Recovery, 
and Hon. Mark L. Pryor, Chairman of the Subcommittee on State, 
Local, and Private Sector Preparedness and Integration, 
presiding.
    Present: Senators Landrieu, Pryor, Tester, Burris, and 
Collins (ex officio).

             OPENING STATEMENT OF SENATOR LANDRIEU

    Senator Landrieu. Good afternoon. Let me call this meeting 
of the two Subcommittees to order, and we will be joined in 
just a minute by Chairman Mark Pryor, who chairs our sister 
Subcommittee and other Members will be joining us as the 
afternoon unfolds.
    I want to begin by saying how pleased I am to host this 
joint meeting. It is a little unusual, but, I think, very 
important and very necessary because of the information that 
our Subcommittees are going to cover. Senator Pryor, welcome. 
And I will be giving a brief opening statement, turning it over 
to my co-colleague, Chairman Pryor, and we are thankful to be 
joined by Senator Tester from Montana.
    Before I begin my opening statement, I would just like to 
refer the audience and those listening to this map,\1\ which 
shows the United States counties where levees are found, 
because that is what our hearing pertains to levee 
certification, flood maps and flood insurance availability and 
affordability. These are very important issues for our country, 
and I thank you, Senator Collins, for joining us. This map 
shows that this really is an issue of national significance, 
and I am glad to be joined by the Senator from Maine because 
she has quite a few counties in Maine that have levees.
---------------------------------------------------------------------------
    \1\ The map referenced by Senator Landrieu appears in the appendix 
on page 44.
---------------------------------------------------------------------------
    You can see that the State of California, which I am 
learning has an extraordinarily intricate set of levees. Almost 
the entire State is represented. Of course, you can see through 
the Mississippi Delta, which is what I represent, a great 
stream of levees all the way up the Mississippi. And in Montana 
and in virtually every part of this country, there are levees.
    The second map \1\ will show--the map in the light green 
and pink--the areas where flood maps have already been updated, 
but the pink are areas that are still under development.
---------------------------------------------------------------------------
    \1\ The map referenced by Senator Landrieu appears in the appendix 
on page 45.
---------------------------------------------------------------------------
    I am going to try to be brief because we have two panels, 
but I want to call attention to a March 18 letter that 16 
Senators of both parties signed to Administrator Fugate and 
Secretary Darcy, who is with us today. I won't read the 
entirety of the letter, but it says, in part, we represent a 
diverse group of constituents with a variety of problems that 
have arisen as the Flood Insurance Rate Maps (FIRMS) have been 
updated. Our constituents have expressed several concerns about 
flood mapping, including a lack of communication and outreach 
with local stakeholders, a lack of coordination between Federal 
Emergency Management Agency (FEMA) and the Corps of Engineers 
in answering questions about flood mapping, flood insurance, 
and flood control and infrastructure repairs, a lack of 
recognition of locally funded flood control projects when 
determining flood zones, the affordability of flood insurance, 
inadequate time and resources to complete flood repairs, 
control structures before maps are finalized, etc, etc.
    I just wanted to begin by saying this, that this is really 
a concern of so many members of the Senate representing a 
variety of different sections of the country. This is not just 
a Southern issue. It is not just a Gulf Coast issue. It is not 
an issue necessarily related directly to Hurricane Katrina, 
although 5 years ago in August, that was probably one of the 
most vivid and horrifying examples of what happens when one of 
our levee systems fail. But we had the Midwest floods in 2008, 
where Cedar Rapids, Iowa, was in large measure, parts of it 
destroyed. We had the floods in Georgia and North Dakota in 
2009, and then most recently in Rhode Island and Tennessee in 
2010.
    So this hearing is really an attempt to get a status report 
on where we are, responding to some of these issues and 
questions. I will submit the rest of my opening statement that 
I prepared for the record. But I hope that we are getting some 
answers to questions like, are FEMA's flood maps technically 
accurate, and if not, how can they be improved? How can the 
FEMA process for resolving map disputes with local communities 
work better? Should the Corps of Engineers offer to inspect 
locally-owned levees, and how else can local governments 
finance these costly engineering inspections? How can people 
afford flood insurance, and more?
    So I am going to submit the rest of my statement for the 
record, but this has been a particular focus of mine for 
several years and I hope we can get to the bottom of some of 
these issues.
    Senator Landrieu. Senator Pryor.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. Thank you, Madam Chairman, and thank you for 
working on this issue as diligently as you have been. We just 
really appreciate your leadership on this and many other 
things.
    I want to thank all the Members of the Subcommittee who are 
here today and who will be coming and going today. I know that 
we have really two very strong panels, and I hope this doesn't 
take too long, but there is a lot of ground to cover here, so I 
appreciate all the witnesses coming today.
    And also, I want to recognize two people who are not on the 
Subcommittee. The first would be my colleague from Arkansas, 
Senator Lincoln, because she has shown great leadership, not 
just in Arkansas, but nationally on this issue. Second is 
Senator Cochran, and he and I have worked on this issue 
together and we have some legislation and he has been a great 
partner in that, so I really want to thank both of them, even 
though they are not here.
    And then I would just like to say a few words that you all 
know and my colleagues know that I have been working on this 
issue for years now, and recently we were able to get a letter 
to, I think, FEMA and the Corps that had Senators from 13 
different States, and this has gone from the little problem in 
Arkansas, where it kind of--we were one of the early States to 
have to go through this, and it is really mushrooming into a 
national concern.
    And there are really two basic concerns, I think, that sort 
of Senators here, or hits States in different ways, but two 
basic concerns. I think Senator Landrieu really fits in this 
category, first is the issue of levee certification and the 
responsibility for the repairs, etc. We can play the blame game 
all we want on this, but the bottom line is, right now, there 
are lots and lots of locally owned levees that need a lot of 
work, that need some repairs, need to be modernized, and they 
just don't have the local resources to do it. As hard as that 
may be, we need to think through that and see if we can come up 
with a solution here.
    The second is really a little different, and that is once a 
levee is certified, what does that mean? When the maps are 
done, I am going to have some questions about something on the 
maps. They call it Shaded Zone X, but what does that mean to a 
community? A lot of communities have passed an ordinance that 
has been drafted by FEMA. What does that mean? If they don't 
agree with the map, can they appeal? How do they appeal? What 
is the redress there? So it falls under that.
    We also have something in our State that is not unique to 
Arkansas, but it is probably unique pretty much to the 
Mississippi River States, and that is we have the Mississippi 
River system of levees and I think the taxpayers, State, local, 
Federal taxpayers, have invested something like $32 billion, or 
maybe more, in that levee system. It has worked great. A lot of 
these levees will keep out floodwaters to the 500-year mark, 
and that is spectacular. But my sense is that when these maps 
are drawn, there is really not a lot of credit given to the 
fact that you have this extraordinarily good, strong levee 
system and a lot of my State, at least, has ended up in what 
they call Shaded Zone X, which is in the 500-year floodplain.
    I know that some of my colleagues are frustrated about this 
and I know that people in Arkansas are frustrated. If my 
constituents are frustrated, that means I am frustrated. We 
haven't had a lot of real progress that has been made on this, 
as hard as we have tried. FEMA has not been the easiest to deal 
with on this, quite frankly. But we are going to continue to 
work on this and I just want to thank my colleagues for being 
here today and thank you for your attention.
    Senator Landrieu. Thank you.
    Do the Members have opening statements? Senator Tester.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Just very quickly. First of all, it is in 
order to thank both Chairmen of this Subcommittee, and I think 
that if the folks who are testifying took notes of what Senator 
Landrieu said about the questions, those are the real 
questions. And I can tell you that this is not a little issue. 
This is a big issue and we need to get it fixed, and I very 
much appreciate you bringing this Subcommittee together.
    One last thing. On the second panel, a good friend of mine, 
a Representative from the State of Montana's Legislature is 
here, Bob Mehlhoff, and I certainly appreciate Bob making the 
trip out and being willing to testify on this very important 
issue from a local perspective. Thanks.
    Senator Landrieu. Thank you, Senator Tester. Senator 
Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Senator Landrieu. I thank you 
and Senator Pryor for your leadership in this very important 
issue.
    I support FEMA's efforts to modernize the outdated flood 
maps with new modeling and more detailed data, but it is 
absolutely imperative that FEMA work with the affected 
communities in doing so.
    In my State, initially, FEMA revised the flood map for 
Maine's largest city, Portland, without consulting with 
Portland city officials, and the result, and I know Senator 
Landrieu can appreciate this because it was from her that I 
learned about V Zones, but the result would have had the effect 
of classifying much of the waterfront as a high-risk flood zone 
and that would have had an extraordinarily detrimental impact 
on the economic vitality of Maine's largest city. The city 
questioned the accuracy of the map, hired a consultant to do 
additional modeling, and FEMA was very helpful in accepting 
that new data, taking a look at its own modeling, and 
ultimately a good decision was reached and I am grateful for 
FEMA's help in that regard.
    But Portland's complaints and experience are not unique. 
Now FEMA is revising the flood maps all along a part of Maine's 
coast. Every community is very worried about where it is going 
to get the money to pay for consultants to provide the kind of 
detailed modeling that will lead to an accurate assessment.
    So those are issues that I want to explore with our 
witnesses today, and again, I thank you for holding this 
important hearing.
    Senator Landrieu. Thank you.
    Well, let us get right into our first panel. We are 
grateful to have Jo-Ellen Darcy, who is our first witness, who 
serves currently as the Assistant Secretary of the Army for 
Civil Works, and in this role she oversees programs for 
conservation and development of the Nation's water and wetlands 
resources, flood control, and navigation. So this is squarely 
in her jurisdiction. We are looking forward to your testimony 
today.
    Our second witness is Dr. Sandra Knight, who serves as 
Deputy Federal Insurance and Mitigation Administrator for FEMA. 
In this role, Dr. Knight oversees floodplain mapping, 
floodplain management, flood insurance, and hazard mitigation. 
I understand, Dr. Knight, that you have asked for some 
additional time in your opening statement and I will allow that 
because I think your testimony is extremely important, and we 
are very anxious to hear any changes or updates that you could 
present to us today.
    But let us start with the Hon. Jo-Ellen Darcy.

TESTIMONY OF HON. JO-ELLEN DARCY,\1\ ASSISTANT SECRETARY OF THE 
        ARMY, CIVIL WORKS, U.S. ARMY CORPS OF ENGINEERS

    Ms. Darcy. Thank you, Senator Landrieu, Senator Pryor, 
Senator Collins, and Senator Tester. Thank you for the 
opportunity to testify before you today. With your permission, 
I would like to make a short statement and submit my entire 
written statement for the record.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Darcy appears in the appendix on 
page 47.
---------------------------------------------------------------------------
    The U.S. Army Corps of Engineers (USACE) shares with the 
Federal Emergency Management Agency the expertise and the 
mandate to address the Nation's vulnerabilities to flooding. 
However, the responsibility for managing the Nation's flood 
risk does not exclusively reside with Federal agencies, such as 
the Corps and FEMA. Rather, it is shared across multiple 
Federal, State, and local government agencies with a complex 
set of programs and authorities, including private citizens and 
private enterprises, as well as developers.
    The Corps and FEMA have programs to assist States and 
communities to promote sound flood risk management. However, 
flood risk can further be reduced locally through tools like 
evacuation plans, land use planning, and public outreach. 
Public safety is our top priority and our top responsibility.
    FEMA has embarked on a Map Modernization Program to update 
and improve the Nation's Flood Insurance Rate Maps. Throughout 
this program, the Corps and FEMA have been successful in 
leveraging data, partnering on floodplain studies, and 
collaborating on related policies in order to provide the most 
current flood hazard information to the public. Both agencies 
will continue to build upon this strong partnership.
    In 2007, the Corps created the Levee Safety Program to 
assess the risk associated with levees and recommend courses of 
action to reduce the risk to the public, to property, and to 
the environment. There are approximately 14,000 miles, or 2,000 
levees, within the Corps' authorities. A majority of these 
levees are Federally authorized but locally operated and 
maintained. The main activities within the Corps' Levee Safety 
Program include creating and maintaining the National Levee 
Database (NLD), levee inspections, and developing new 
procedures for assessing levees, such as establishing tolerable 
risk guidelines.
    The Corps conducts regular levee inspections to verify 
proper operation and maintenance, identify deficiencies that 
need repair, and document performance over time. Following each 
inspection, the Corps communicates the findings to the levee 
sponsor in addition to recommending items for repair and 
possible interim risk reduction measures, if they are 
necessary. A copy of the inspection results is also provided to 
FEMA. The Corps will assist the local sponsor and other 
stakeholders to develop the best path forward. That may include 
a more comprehensive flood risk management approach as opposed 
to keeping focus on just the levee as the only means to reduce 
flood risk.
    Levee System Evaluations, otherwise, known as Levee 
Certification, for the National Flood Insurance Program (NFIP) 
is for flood insurance purposes and the 1 percent flood event. 
It is not a safety standard for levees. Because local entities 
are responsible to administer the requirements of the National 
Flood Insurance Program and are often responsible for operating 
and maintaining the levee, the Corps considers the levee 
certification a local responsibility. However, the Corps will 
work with FEMA and the local entity to provide information 
collected through our Levee Safety Program.
    Looking at the bigger picture, the 14,000 miles of levees 
within the Corps' Levee Safety Program only represent about 10 
percent of the levees nationally. The condition of many of the 
levees throughout our Nation is unknown.
    I would like to mention the work accomplished under the 
National Levee Safety Act of the Water Resources Development 
Act (WRDA) of 2007, which established the National committee on 
Levee Safety and directed it to develop recommendations for a 
National Levee Safety Program (NLSP). The committee completed 
its draft report in January 2009 and put forward 20 
recommendations for creating a National Levee Safety Program.
    In May 2009, the Army provided the final draft report to 
Congress. Although the Corps chairs the committee, the 
recommendations do not and were not intended to represent the 
administration's position. The Corps is working to implement 
certain components of the Act and coordinate agency levee 
safety activities with the committee for activities that align 
with its recommendations.
    I would like to thank you for the opportunity to testify 
today on the Corps' roles and responsibilities in FEMA's 
remapping program and levee safety. I would be pleased to 
answer any questions that you may have. Thank you.
    Senator Landrieu. Thank you. Dr. Knight.

TESTIMONY OF SANDRA KNIGHT,\1\ DEPUTY ASSISTANT ADMINISTRATOR, 
   FEDERAL INSURANCE AND MITIGATION ADMINISTRATION, FEDERAL 
   EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Ms. Knight. Good afternoon, Chairman Landrieu and Chairman 
Pryor and distinguished Subcommittee Members and Senator 
Collins. We appreciate the opportunity to testify before you 
today and discuss flood mapping and FEMA's role in helping 
communities identify and address their flood risks.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Knight appears in the appendix on 
page 56.
---------------------------------------------------------------------------
    It is my privilege to share the panel with Ms. Jo-Ellen 
Darcy. I appreciate that we have the opportunity to demonstrate 
our partnership as we manage the flood risk in our Nation.
    Before I begin today, I would like to first thank the 
Subcommittee for providing me with additional time to make my 
opening statement. Flood mapping can be complex and at times 
confusing, so it is understandable that many of your 
constituents have questions or concerns about the program and 
how it affects them. That is why I am pleased to have the 
opportunity today to break down this complex issue so that we 
can focus on the underlying goal of the National Flood 
Insurance Program, which is to protect property and save lives.
    To help structure my remarks today, I would like to address 
the most common questions that we hear on flood mapping and the 
National Flood Insurance Program.
    Why is flood mapping important? Each year, communities in 
every region of this country experience severe weather events 
that lead to flooding that can cause damage to property, hurt 
the economy, and tragically result in the loss of life. Flood 
mapping is important because it helps communities identify the 
risk posed by flooding before it occurs so that those losses 
can be minimized or prevented.
    New and updated maps not only reflect better data on 
hydrology and topography, but also show changes due to 
variations in weather patterns, changes in landscape, the 
impact of development on drainage patterns, and the extent of 
community vulnerability to floods. It is the responsibility of 
FEMA to identify and map flood risks in communities across the 
country so that it can establish and maintain a fair and 
accurate insurance rating mechanism for the NFIP.
    So why are we mapping now? As part of the National Flood 
Insurance Act of 1968, Congress mandated that flood maps be 
regularly updated to reflect the risk posed by flooding. And 
more recently, in 2003, Congress began appropriating funds to 
update and modernize these out-of-date flood maps that too many 
communities were relying upon to make important decisions 
regarding development and public safety.
    Prior to 2003, flood maps were static paper documents, 
limited in their detail, and hard to use and maintain. In some 
cases, the maps were 20 to 30 years old and did not reflect 
current risks or recent changes in the watershed. Today's maps 
are digital and provide more detailed, reliable, and useful 
data that can be updated more frequently and in a cost 
effective manner. Using modern technology, digitized maps can 
be easily shared among homeowners, community decision makers, 
and other stakeholders. And, in fact, Flood Insurance Rate Maps 
are accessed more than 30 million times a year.
    As a result of this new mapping effort, we have a better 
picture of what areas are most likely to be impacted by 
flooding. In turn, this information will help emergency 
personnel write response plans that account for new and 
evolving flood challenges while also giving home and business 
owners critical information on how flooding could impact their 
property.
    In short, accurate maps reflecting current flood risks lead 
to better decisions how to protect a community.
    So how do we do the flood mapping? Mapping the Nation's 
flood hazards requires a process that incorporates data 
collection, analysis, and review to make sure that each map 
reflects the best information available to communities and to 
FEMA. While we are confident that the science we use to develop 
community maps is sound, making and maintaining accurate maps 
is not simple or done without considerable investment. That is 
why we work closely with State and local communities and other 
Federal agencies, such as the Corps, to get the most accurate 
information and latest science to ensure the best available 
information is reflected on the maps.
    Because of the scientific judgments and assumptions that go 
into a flood study, there are sometimes differences of opinion 
about the end result. That is why FEMA has an appeals process 
for communities. FEMA reviews alternative analysis and 
determines whether they are superior to those used for the 
flood study. And further, to improve the process, beginning the 
first of November, FEMA is making available an independent 
scientific body, a scientific resolution panel that can be 
convened at the request of the community or FEMA to resolve 
conflicting data on the maps.
    So why are people in floodplains required to purchase 
insurance? Well, the short answer is that it is the law. The 
1973 Flood Disaster Protection Act (FDPA) directed that 
mortgage lenders require people in special flood hazard areas 
who have a Federally-backed mortgage to purchase flood 
insurance, and while some homeowners may question whether they 
really need insurance, it is important to keep in mind that 
during a 30-year mortgage, property owners located in a 100-
year flood zone or Special Flood Hazard Area (SFHA) have a more 
than 26 percent chance of experiencing flood damage.
    Even when flood insurance is not required, it is more often 
than not still needed. A quarter of all flood claims come from 
moderate and low-risk areas, and flood policies in these areas 
are affordable. So we encourage all property owners to talk to 
their insurance agents, discuss their risk and options, and 
make sure they are protected.
    However, we understand the concerns that many have about 
the additional costs of flood insurance coverage, particularly 
during these challenging economic times. To help reduce the 
cost of insurance, the NFIP gives property owners the ability 
to purchase a preferred risk policy at a discounted rate when 
they are newly designated in high-risk areas. Further, in 
response to concerns that we have heard from many of your 
constituents, we are implementing a new policy on January 1 
that will extend the time frame for property owners to purchase 
these lower-cost preferred risk policies.
    So why do levees need to be accredited? There are thousands 
of miles of levees in the United States, as seen here. They are 
designed and constructed to provide a last line of defense for 
people and properties against major coastal and river flooding 
events. Accurately depicting flood hazards near levees on flood 
maps is critical to ensuring the public is aware of the unique 
flood risks associated with levees so they are armed with facts 
that will allow them to reduce their risk. Levees require 
regular maintenance to maintain their level of protection. The 
fact is, levees can and do decay over time and maintenance can 
become a serious challenge. When levees do fail or are 
overtopped, the resulting flood damage may be more significant 
than if the levee was not there at all. So home owners and 
communities must be aware of what protection they get and do 
not get from a levee.
    FEMA's levee-related responsibilities are spelled out in 
Title 44 of the Code of Federal Regulations (CFR). Based on 
these regulations, a levee owner must submit documentation to 
FEMA demonstrating that their levee meets minimum standards in 
order for it to be recognized on a flood map. Once it is 
recognized, the community behind the levee will be identified 
on the map as being protected against a 1 percent annual chance 
flood. Flood insurance is not required in those areas, but it 
is recommended.
    We also understand that some local levee owners do not have 
immediate access to the documentation required to certify their 
levees, even though they may be performing well. While FEMA 
does not have the funding nor the authority to manage this 
process on behalf of the levee owners, we do have programs in 
place, such as the Provisionally Accredited Levee (PAL) 
designation, to give them additional time to produce and 
collect the required documents.
    So in conclusion, I would just like to say FEMA is working 
diligently with our Federal, State, and local partners to 
update flood maps nationwide and address the concerns of 
communities. We will continue working with all of our 
stakeholders to analyze and identify flood risks, produce 
useful and informative flood maps, and communicate the true and 
current hazards for Americans where they live, work, and play. 
We have both the legal and moral obligation to depict that risk 
accurately, and we are committed to meeting those 
responsibilities.
    Again, thank you for this opportunity to participate in 
today's hearing and I am prepared to answer questions, as well.
    Senator Landrieu. Thank you, Ms. Knight. We have quite a 
few.
    It is my understanding that under current law, FEMA can 
provide a community up to $250,000 to help them with mapping. 
Do you know how many communities you have been able to help 
with these grants in the last year or two?
    Ms. Knight. We are under statute authorized to do that, but 
we haven't been appropriated to do it.
    Senator Landrieu. So you haven't been able to help one 
community?
    Ms. Knight. However, I would like----
    Senator Landrieu. I mean, with that grant program.
    Ms. Knight. I am not sure it is a grant program under the 
law. But what we do have is a Cooperative Technical Partnering 
(CTP) program and we can provide funds through the CTP to the 
State and communities that----
    Senator Landrieu. How much money have you sent out to local 
governments specifically, and how many communities do you think 
you have helped come up with local flood maps? Do you have that 
information?
    Ms. Knight. I don't have the dollars. We do have the CTPs 
in many of our States and communities and we pass funds to them 
to help put the data together.
    Senator Landrieu. Alright. If you could submit that, 
because it is my understanding that FEMA is authorized to 
provide up to $250,000 to a community for mapping support 
activities like hydrology studies, but that you don't have any 
money to do that.
    Ms. Knight. Well, through the CTPs we do--I have been 
passed a note that we do provide $75 to $80 million a year to 
the----
    Senator Landrieu. OK, and the CTPs are----
    Ms. Knight. Cooperating Technical Partners.
    Senator Landrieu. So is that actual money or is it just in-
kind assistance through professional services?
    Ms. Knight. No, it is actual funds to actually do some of 
the work. They can do some of the technical things. They can do 
outreach. There is a list of activities that they can do with 
that money to help us not only build the maps and the data, but 
to communicate and do outreach.
    Senator Landrieu. Do you have any idea of the numbers of 
communities that you served, how many are still on the waiting 
list that haven't received funds?
    Ms. Knight. No, ma'am. We can get back to you with that----
    Senator Landrieu. If you could get back to us----
    Ms. Knight. I don't know that they have been--they have 
asked--
    Senator Landrieu [continuing]. Because that is what we are 
trying to get. One of the things I am trying to get to is how 
many communities around the country have asked for technical 
assistance and been denied, either because we don't have the 
personnel or the funding to help them. That is one thing that I 
am trying to understand.
    Another is this V Zone issue, which I continue to bring up 
and you can imagine why, because that is the V Zone in 
Louisiana. And a 1977 law prohibits Federal funding for new 
construction in what we call High-Velocity Zones. In this area, 
I would imagine, not counting the City of New Orleans, which is 
slightly outside of that V Zone, that maybe a million people 
live in that zone. The entire City of Houma, I think, is 
included in the V-Zone. A large part of Cameron Parish is 
there.
    So my situation is that in a V Zone, when a hurricane hits, 
and they will hit regularly this area, when a building is 
knocked down, the current law prevents us from building a new 
building in that zone, even if we build it 18 feet above sea 
level. So we do not have a good understanding of how to get out 
of this situation, because we can't move a million people. We 
have to figure out how to live in a sustainable way. And so I 
am going to come back to this in a minute. I have just one more 
question and I will turn it over to Senator Pryor.
    The other question is, and this comes from, I think, one of 
our panelists on the second panel, and I want to state this for 
the record. In Dr. Maidment's written statement, he says ``Base 
Flood Elevations (BFEs) are only shown on floodplain maps that 
have been prepared with high-quality land surface elevation 
information and detailed flood modeling studies. Maps that show 
only floodplain boundaries have the disadvantage of implying 
that every building in a designated flood zone may flood and 
that every building outside the flood zone is safe. Providing 
floodplain residents with elevation of structures relative to 
the expected height of a number of floods offers a better way 
to define risk.''
    What percentage of your maps right now, if you can say 
this, include high-quality elevation data as opposed to 
boundary lines? Do you know?
    Ms. Knight. Well, I know that what we have for--of course, 
the map modernization was actually moving the historic maps 
into digital format. Of that, 30 percent of the stream miles 
are represented with new science and information.
    Senator Landrieu. So would you say that you think 30 
percent of your maps, whether they are digitized or in the old 
form, reflect this high-quality elevation data? Do you think 
that is correct? And you don't have to answer now, but if you 
could get that information, because I think it is very 
important for our Subcommittee to understand what we are 
dealing with, not whether the maps are digitized or not, it is 
whether they are high quality and elevations because that would 
help the local communities.
    I have others, but I know my colleagues have questions, as 
well. Let me turn it over to Senator Pryor.
    Senator Pryor. Thank you, Madam Chairman.
    Ms. Knight, let me start with you, if I may, and that is I 
will go ahead and ask you to look at these maps here. These are 
two maps from Crittenden County, Arkansas, which is the West 
Memphis and Marion area. This map that is closest to me, which 
is on your left, is the map that you guys did in 1981. And next 
to it, it is not exactly the same area, but that little area 
that has all the streets on it is clearly on the second map. 
That is Marion, Arkansas, a little part of Marion, Arkansas, 
and it is on the second map, which is the proposed map that you 
have now.
    There are some differences in what you call Zone X, which 
is the 100-year floodplain, and there are a few minor 
differences, which I understand those happen. But the most 
dramatic difference on that map is that the second map is all 
gray, and that is the Shaded Zone X. In 1981, you didn't have a 
Shaded Zone X--
    Ms. Knight. I can answer that.
    Senator Pryor [continuing]. And now you do. Can you tell us 
why you have gone to the Shaded Zone X?
    Ms. Knight. Yes, Senator, I can. Zone X is not the Special 
Flood Hazard Area. It is an area that recognizes--there are 
several designations for Special Zone X. The one you are 
discussing here or pointing out here is actually an area 
protected by a levee. And so in the map of 1991 [sic], there 
was not a regulation in place that said that we were to certify 
levees. In 1986, that was changed and we were required to do 
that. As part of that, we included in our policy that Zone X 
behind levees should be shown to the public so they understand 
their risk of living behind a levee. It does not require--it 
does not mandate insurance. It doesn't mandate that they do any 
special floodplain ordinances. It is not a Special Flood Hazard 
Area.
    Senator Pryor. OK, but you mention that there is a note on 
the map itself and the note reads, ``To mitigate flood risk in 
residential risk areas, property owners and residents are 
encouraged to consider flood insurance and floodproofing or 
other protective measures.'' I have a lot of questions about 
that, but I guess the first question would be, is it safe to 
say that the Shaded Zone X is the 500-year floodplain?
    Ms. Knight. No, sir. The Shaded Zone X represents what 
would happen would there be a failure of the levee, in this 
case. It also indicates to the public that there is a chance of 
flooding from interior flooding. The event we had that came 
over West Tennessee and Nashville recently was an unusual 
event. Had it stopped a little short, there could have been an 
opportunity for flooding inside that levee, between the St. 
Francis and the Mississippi Rivers. So we want people to be 
aware that there is a risk of overtopping or there is a risk of 
interior flooding. But FEMA does not mandate any codes or, in 
fact, we don't issue any land ordinances or building codes and 
it is not required in Zone X.
    Senator Pryor. OK. Well, in the map itself, on the legend 
of the map where it has Zone X and it tells you what that 
means, it says areas of 0.2 percent annual chance of flood. 
Isn't that the 500-year floodplain?
    Ms. Knight. There are several designations for Zone X. That 
particular piece on the legend, I would have to get back to you 
on that, because there are several designations for Zone X.
    Senator Pryor. OK. It also says areas of 1 percent annual 
chance of flood within average depths of less than one foot or 
with a drainage area of less than one square mile in areas 
protected by levees from 1 percent annual chance of flood. So 
does this mean----
    Ms. Knight. Oh, that is an area protected by a levee from 1 
percent, which is the minimum standard. Certainly, as was 
discussed earlier, perhaps Mississippi River and Tributaries 
(MR&T) or the Mississippi River levees may have a higher level 
of protection. But our minimum to look at certification is the 
1 percent.
    Senator Pryor. All right. I have some follow-up questions 
on that.
    Ms. Knight. OK.
    Senator Pryor. We don't have a lot of time, but I will 
submit those for the record. But I do have another question 
about the Flood Insurance Program, and that is the way you set 
your premiums. If someone is in the Shaded Zone X area and they 
decide to buy insurance, or what I think is likely to happen, 
the mortgage company or their homeowners' insurance company 
would require them to purchase insurance because of this note 
on the map and because they are in a shaded area on the map, 
how is that premium set?
    Ms. Knight. It is an actuarially-based premium. All our 
premiums are. They reflect the risk taken by the Federal 
Government to provide that insurance. The question--and I think 
we have some data here today on some of what the dollar figures 
are for those policies. Lenders--we do not mandate that the 
insurance be purchased in that zone. A lender may do that. It 
has not been our experience that is widely done, because the 
lending institutes are very competitive and honestly would like 
to get the mortgage--be able to persuade the homeowners to use 
their institution for the mortgages.
    Senator Pryor. Yes. Didn't you say earlier that the flood 
maps are, Flood Insurance Maps are referenced more than 30 
million times a year? I assume that is largely by financial 
institutions that are doing title searches, etc.
    Ms. Knight. It is by individual homeowners. It is by 
community officials. It is by all sorts of stakeholders and 
people that are engaged. So it is not just lenders.
    Senator Pryor. So you said earlier that if you have a 30-
year mortgage and you are in a 100-year floodplain, you have a 
26 percent chance of a flood during the life of that mortgage. 
What is it if you are in the 500-year floodplain with a 30-year 
mortgage?
    Ms. Knight. I actually don't have the number off the top of 
my head, but I actually saw something. There is a nice chart on 
American Society of Civil Engineers (ASCE's) website that kind 
of gives you the different probabilities for each frequency 
flood.
    Senator Pryor. And do you get a----
    Ms. Knight. It is somewhat less than that.
    Senator Pryor. Do you get a lower premium based on that?
    Ms. Knight. The premiums are based on the zones themselves, 
so depending on how the zone is classified. We map the risk, 
but the Flood Insurance Rate Maps are done by zones. And within 
each zone, those rates are variable, depending on depth and 
depending on proximity and that sort of thing and what kind of 
home it is. It is very individual based on the home itself or 
the building itself.
    Senator Pryor. You have several different premium levels, 
is that right?
    Ms. Knight. Yes, sir.
    Senator Pryor. Well, I do have a lot more questions, but I 
don't want to intrude on my colleagues' time, so I may just 
submit those for the record.
    Senator Landrieu. Well, I can say, as I recognize the 
Senator from Montana, that no matter what zone you are in, most 
of our constituents think they are paying too much for flood 
insurance. And, of course, flood insurance only covers up to 
$250,000 of a home. There are many, many homes in the United 
States that are valued at much more than $250,000 that have to 
go to the private market, and so that is on top of the premiums 
that are paid and it gets back to the question of are your maps 
boundary maps or are they elevation maps, and you can actually 
see structures within shaded zones, or non-shaded zones, that 
there is an advantage or disadvantage structure by structure.
    But, Senator Tester, your turn for questions.
    Senator Tester. Yes. Thank you very much. We have a lot of 
questions and so I appreciate the opportunity and thank you 
both for being here.
    I just want to touch very briefly on the CTP funds.
    Ms. Knight. Yes.
    Senator Tester. How much are those grants for? What are 
they capped at?
    Ms. Knight. It is based on scope of work, and I don't 
know----
    Senator Tester. Is there a cap?
    Ms. Knight. No.
    Senator Tester. OK. And those amounts can be used for 
technical outreach work, various works like that.
    Ms. Knight. Yes, sir.
    Senator Tester. Do you have any money for certification of 
levees or is that not within your purview?
    Ms. Knight. No, sir. It is not in our purview.
    Senator Tester. OK. Secretary Darcy, I appreciate you being 
here and I am feeling like you need some questions, so here we 
go. [Laughter.]
    Ms. Darcy. Thanks for asking.
    Senator Tester. No problem. There are thousands of miles of 
levees, and I think it was in Sandra Knight's testimony, that 
were constructed mostly by the Army, or mainly by the Army 
Corps of Engineers. Before January 2008, the Army Corps did 
inspections. In fact, the town of Missoula, shortly before 
January 2008, had their levee inspected by the Army Corps of 
Engineers. Since that point in time, though, the agency doesn't 
do it anymore. This puts small rural communities that don't 
have a lot of population base to spread out funding in a very 
precarious situation because of the certification of levees. 
Could you give me some insight into why that policy was 
changed?
    Ms. Darcy. Senator, the policy change came before I did, 
but I think the intent of the policy change basically was 
because of the funding. We were focusing our funding on levee 
safety and not certification, and the levee certification is, 
as we have said, is a local responsibility. If a Corps of 
Engineers levee has been built by the Corps of Engineers and is 
maintained by the Corps of Engineers, it is their 
responsibility. If the Corps of Engineers has built the levee 
and turned it over to the local sponsor under a cost sharing 
agreement, then part of the operation and maintenance of that 
is the local sponsor's, so----
    Senator Tester. Got you. Doesn't the Army Corps still do 
annual and periodic inspections of those levees----
    Ms. Darcy. We do inspections--
    Senator Tester [continuing]. Even if they do turn them over 
to a local entity?
    Ms. Darcy. Yes, sir.
    Senator Tester. Why can't they just take that to the next 
step and do the certification?
    Ms. Darcy. The inspection information is given to FEMA, and 
for the purposes of floodplain accreditation, that information 
can be used for that. But it is an evaluation and provision of 
information.
    Senator Tester. Thanks for that piece of information. So 
why don't you use that information for determining the flood?
    Ms. Knight. Sir, we do. We use all the information the 
Corps gives us.
    Senator Tester. OK. So why are we requiring a 
certification?
    Ms. Knight. It is required by the law in 1986 that we do 
that, and there are some standards in there that say that we 
have certain things to provide.
    Senator Tester. OK. Let us bounce back then. So why can't 
we take the extra step to say it is certified?
    Ms. Darcy. When we do an inspection, we do annual 
inspections and we do periodic inspections----
    Senator Tester. Yes----
    Ms. Darcy [continuing]. And again, these are of Corps-
constructed levees, only 14,000 miles of the 100,000 or more 
miles of levees in the country. So it is a limited universe 
that we have. And when we do our inspections, we do an annual 
inspection, which is we walk up and down the levee and it is 
visual and we give that information to the local sponsor and 
FEMA.
    Senator Tester. Right.
    Ms. Darcy. Then we do a periodic inspection, which we do 
every 5 years, which is a more detailed inspection. However, 
that inspection is not--the sort of checklist that we have on 
our periodic inspections does not include all of those 
requisites that need to be done for a----
    Senator Tester. So what additional information needs to be 
collected to meet that?
    Ms. Darcy. There is additional engineering information that 
needs to be collected. That is in addition to what a regular 
inspection that we do would involve.
    Senator Tester. OK. The Army Corps in 1987 used risk-based 
analysis caused--use of risk-based analysis--let me be clear--
caused a disconnect with FEMA, FEMA's numeric freeboard 
standard. The disconnect made the standard Army Corps data 
unsuitable for FEMA certifications. In that case, the two 
agencies were able to come to an agreement so that the data was 
usable by both sides. Have your two agencies attempted to come 
to an agreement on data of inspection of levees, because I 
think you have two different standards. If I am incorrect on 
that, correct me.
    Ms. Darcy. Senator, it is not incorrect. What it is, is 
that the checklist that FEMA has in order to have a levee 
evaluation for their program to be in the NFIP program----
    Senator Tester. Yes.
    Ms. Darcy [continuing]. Has more requirements than what we 
have in our periodic inspection.
    Senator Tester. OK. And there is no way to get those two to 
match up?
    Ms. Darcy. I am not saying there isn't a way. I think that, 
as I say, it is additional requirements and we view those 
requirements as operation and maintenance level of 
responsibility.
    Senator Tester. OK. Administrator Knight, in the last few 
months, FEMA has announced a number of changes to attempt to 
help struggling communities transition to their new flood maps. 
We appreciate that. One of the struggles faced by communities 
and homeowners in a new Special Flood Hazard Area, similar to 
what the Senator from Arkansas talked about, are faced with 
sudden unanticipated expenses, $1,700 a year. The tremendous 
financial drain is not a part of their household calculations 
and puts them in a heck of a bind.
    Senators have expressed their support for at least a 
phased-in premium for residents of areas that are newly mapped 
in the floodplain. While FEMA has not put such a policy in 
place, and correct me if I am wrong on that, I appreciate the 
attempt to use an extended referral risk policy to grant relief 
to some of those residents. One of the most important elements 
of this new policy is that it is retroactive to when many of 
the new maps from the Map Modernization Program began to go 
into effect. I am getting somewhere with this. This allows 
communities who are already struggling with new insurance rates 
to better handle the shift.
    Another concern that many communities have is the appeals 
process for disagreements with FEMA findings. Last week, FEMA 
proposed--you probably know where I am going now--proposed an 
impartial third-party arbitration panel for resolving 
scientific disputes that cannot be resolved through the 
existing appeals process. However, this proposal, this one is 
not retroactive, so it is unavailable to any community that 
feels their appeal was wrongly rejected but for whom the new 
flood maps have already gone into effect. What will FEMA do for 
the communities that are already living with new flood maps 
that they disagree with?
    Ms. Knight. Well, sir, there is a lot of discussion in 
there. First, I would like to start with the graduated rate 
proposal.
    Senator Tester. Yes.
    Ms. Knight. That is not in our statutes to do that, but we 
support that and we----
    Senator Tester. I appreciate that.
    Ms. Knight [continuing]. The Administrator has come on 
board to say that we do support that.
    Regarding the Scientific Resolution Panel----
    Senator Tester. Yes.
    Ms. Knight [continuing]. We think it is a great way forward 
and we appreciate that----
    Senator Tester. As do I.
    Ms. Knight [continuing]. You are supportive.
    Senator Tester. So why don't we make it retroactive?
    Ms. Knight. So the retroactive piece is that for 
communities that use these flood maps to make decisions in 
their communities, these maps are already in place, and as many 
folks that come into the maps go out of the maps as they are 
updated and improved. And so to go back and change that could 
change a lot of activities that communities are doing to reduce 
their risk in their communities.
    Senator Tester. But you do understand that without it being 
retroactive, this doesn't help the folks who have already been 
placed into a new scheme.
    Ms. Knight. If they are placed--we resolved many of the 
appeals. We have had 275 appeals out of 92,000 map panels, 
which is pretty good, but there still is an opportunity. We 
have a map change process----
    Senator Tester. OK.
    Ms. Knight [continuing]. And so any community that feels 
like their data is still not correct, there is a map revision 
process----
    Senator Tester. Good.
    Ms. Knight [continuing]. That they can submit to FEMA and 
we will update the maps.
    Senator Tester. And that process includes what?
    Ms. Knight. It includes--there is a list of data that they 
have to provide, much like the appeals, that demonstrates that 
it is new, improved data.
    Senator Tester. OK. Well, I have a town called Miles City 
that is in a heck of a quandary over this and we were hoping 
this Appeals Panel could help them, but it is not retroactive, 
so they are out of luck. So if it was possible----
    Ms. Knight. They can submit a map revision, a request for 
map revision.
    Senator Tester. OK. All right. One more question, real 
quick. It doesn't have to do with this, but as long as we have 
the Army Corps here, I have to do this, so a little bit--I want 
to talk a little bit about some cabin transfers on Fort Peck 
Lake.
    For 10 years, Congress has allocated the Army Corps $3 
million to perform these conveyances. Right now, I understand 
the Corps is charging potential buyers and owners up to 
$10,600, to be exact, in administrative costs to get these 
transferred, triple the administrative costs for similar 
transactions in the private market. Let me tell you, when I get 
people from the private sector coming up to me and telling me 
that Government isn't efficient, it is hard for me to argue 
when--and I just got another, if it gets through the process, 
$1 million for cabin conveyances in appropriations, and we are 
still charging this kind of money.
    The good Senator from Arkansas said when his constituents 
aren't happy, he is not happy. My constituents are not happy, 
and I can't tell them--I can't give them any reason why this is 
happening.
    I will tell you that for $3 million, you could probably buy 
a fair number of the cabins around Fort Peck Lake. What is 
going on?
    Ms. Darcy. Well, Senator, in anticipation of your question, 
I did ask staff to look at the administrative expenses that you 
refer to, and you are right, that it is anywhere between $9,000 
and $10,600, and we have broken down the expenses and a good 
bit of them, quite frankly, like 36 percent of the 
administrative expenses are due to our having to evaluate the 
sanitation conditions for the----
    Senator Tester. But these are all on the same lake.
    Ms. Darcy. Right.
    Senator Tester. You can't take a format and move it? It 
would seem to me--this is $10,600 in addition to the $3 
million.
    Ms. Darcy. Correct. That is what--but that is what they 
would have to reimburse the Corps for the administrative 
expenses, correct.
    Senator Tester. But Congress--do you understand what I am 
saying? Congress has allocated $3 million, plus we are dinging 
the owners $10,600 in addition to that. This is a ton of dough 
for cabins that, truthfully, I don't know how many cabins are 
on Fort Peck Lake, but you could probably, if you are talking 
not the land but the cabin, you could probably buy a fair 
number of those cabins for $3 million plus $10,600 for every 
property.
    Ms. Darcy. I know that these estimates are based on the 119 
cabins that are in the Fort Peck Parcel.
    Senator Tester. Yes.
    Ms. Darcy. I will--it does sound like a lot of money----
    Senator Tester. It is.
    Ms. Darcy [continuing]. And----
    Senator Tester. You could buy a fair part of Chouteau 
County for $3 million. I mean, it is a lot of money. It is a 
lot of money. Take it back to the brass. I thank you, if you 
would, and I appreciate both of you being here. Thank you very 
much.
    Just in closing, I don't want to go off the levee thing. 
This baby ain't going away. We have to figure out a way, and I 
appreciate the work that FEMA and the Army Corps have done 
together in towns like Great Falls, but we have to get this 
fixed because we are breaking people. Thank you.
    Senator Pryor. [Presiding.] Senator Collins.
    Senator Collins. Thank you, Senator Pryor.
    Ms. Knight, let me start first by thanking FEMA for 
responding to my request and working with the City of Portland 
to come up with a more accurate flood map. It turns out that 
FEMA's baseline wind and wave measurements are not appropriate 
for Casco Bay because it has so many islands and ledges and 
peninsulas that change the flooding from what would be 
predicted using your models. So we had an acceptable outcome 
when it comes to the City of Portland, but the problem is that 
the city had to spend $10,000 to hire a consultant to do the 
kinds of specialized modeling.
    There are now some two dozen coastal communities in Maine 
that are going through the same process. When the Portland 
Press Herald interviewed FEMA officials about why they were not 
doing the more sophisticated modeling, FEMA replied that it 
lacked sufficient funding to perform the more detailed 
floodplain modeling that the City of Portland paid for and that 
these other communities are paying for.
    That prompted me to take a look at the budget that FEMA has 
for flood map modernization, and last fiscal year, the 
President's budget request was $220 million and Congress fully 
funded that amount. This year, however, the administration's 
budget request is only for $194 million. That obviously is $26 
million less. That is more than a 10 percent cut. Did FEMA ask 
for more money and get turned down?
    Ms. Knight. I can answer that. Actually, Senator, the cut 
was because of efficiencies in our program management and a new 
system for information technology (IT) that helped us save some 
dollars.
    Regarding the technical pieces of it, there will be no 
downgrade to the technical approaches we take.
    And I would like to comment, if I can, on your discussion 
about the technical levels of detail. We certainly recognize 
coastal areas, as Senator Landrieu stated, are challenges, and 
there certainly are different types of models and data that are 
important in different regions, depending on the topography and 
the conditions. And for the Portland area, what we really 
appreciated was, in addition to the community reaching in and 
updating their model, was the data itself, because the wind 
data drives the coastal models.
    So we have a new source of wind data that we will certainly 
be using in the rest of the maps in your State and we also 
encourage throughout the process, before we get to appeals, 
that the community partner with us with whatever data they 
have. So to minimize any expenses to the community, we would 
gladly take any data that you have.
    To administer the balance of the program across the United 
States and the map we had up there earlier, it really does take 
that we have a base set of data that we use and a base kind of 
model that we start with. If we can get better information, we 
certainly use it. We certainly take advantage of any data the 
other agencies have or the State has.
    Senator Collins. Are you using better data, for lack of a 
better word, as you look at the rest of the coast, learning 
from the experience in Portland?
    Ms. Knight. I can tell you, as we roll out with our next 
generation map that we will definitely be looking at upgrading 
the science, and that is our version called Risk Map. For the 
maps that we have now, we have a plan that we work with the 
communities and do the basic things, and a lot of communities 
that have had more data, we have used more sophisticated 
information. It would be nice to have real granular data 
everywhere and it is simply not available at this point.
    Senator Collins. But, see, that is exactly the problem. It 
is shifting the burden onto the coastal communities in York and 
Cumberland Counties to spend the money for consultants to 
produce this data, and that is expensive and a lot of these 
communities are cash strapped right now due to tough economic 
times, and we have communities like Harpswell, for example, 
which, believe it or not, has 200 miles of coast, even though 
it is a very small community, just because of the way Maine's 
coast is. There are so many little bays and inlets. We have the 
town of Kennebunkport. It is projected that two-thirds of 
Kennebunkport would be placed in a flood zone. That is a 50 
percent increase from the current flood map.
    The implications for new development, as the Chairmen have 
both indicated, for the cost of flood insurance, are enormous 
both for individuals and for the community, and that is why I 
feel so strongly that the financial burden of providing the 
data that would lead to the most accurate possible flood maps 
shouldn't fall on the communities. It should be FEMA's 
responsibility.
    Ms. Knight. Well, to have the level of data in every 
community on every map would far exceed the budget that we have 
to work with because of the level of data that it would take to 
do that. And again, in places we have it and opportunities 
where we can work with, through cooperative technical 
partnerships, then you can provide that data. You can provide 
it to us anyway, but we can work with you and give you funds to 
help do that if you have a technical source that understands 
your situation better. Those are the vehicles right now that we 
use. As we do the next generation maps, where we are looking at 
where the highest risks are and where that precision needs to 
be improved. We will be able to step up some of the engineering 
tools and some of the data tools there.
    Senator Collins. Well, I would ask that you continue to 
work with me and the other Members of this Subcommittee----
    Ms. Knight. We would be glad to.
    Senator Collins [continuing]. To help communities tap into 
that funding source, because for a community to have to spend 
tens of thousands of dollars to produce data to challenge these 
maps is really difficult during these tough economic times. 
Thank you.
    Senator Landrieu. Yes, and I would just add that it would 
seem to me a more reasonable approach would be to develop the 
maps together, in sort of a not adversarial, but in a 
partnership, because that is what this is. It is a partnership 
to keep our communities safe and to do it in the most 
affordable way.
    I would like to ask--this has been a very good panel. I 
hope you can all stay to hear the second panel, because we have 
to move to our second panel, and I would like to introduce just 
one member of that panel and then turn it over to Chairman 
Pryor to introduce the others.
    But we thank you for your testimony. We are going to follow 
up. We have just scratched the surface here, the tip of the 
iceberg. We have many follow-up questions and I am going to ask 
the Members to submit those for the record. But thank you all 
very much.
    If the other panel will come forward, Dr. Suhayda is the 
Interim Director of the Louisiana State University Hurricane 
Center. He recently chaired the Independent Technical Review 
committee of the Joint FEMA-Corps of Engineers Storm Surge 
Study. We are looking forward to his testimony.
    If the others would please take their seats, Senator Pryor, 
to keep us moving, will introduce you as you are seated. And 
again, thank you all very much. Senator Pryor.
    Senator Pryor. Thank you, Madam Chairman. I will go ahead 
and introduce this panel as our staff sort of swaps out the 
nameplates and resets the microphones, etc. I will be very 
brief in my introduction, and I am going to introduce three of 
the panelists. Senator Landrieu has already introduced one. And 
then Senator Tester will introduce the fourth.
    But I would like to begin by introducing Dr. David 
Maidment. He is Director of the Center for Research in Water 
Resources and Chair in Civil Engineering at the University of 
Texas in Austin. He served as Chairman of the National Research 
Council's Committee on Floodplain Mapping Technologies and FEMA 
Flood Maps.
    Our next witness is Sam Riley Medlock. She is Policy 
Counsel for the Association of State Floodplain Managers and a 
member of the National Committee on Levee Safety. Ms. Medlock 
has over 18 years experience working on hazard mitigation and 
environmental policy.
    And finally, I would like to introduce Rob Rash. He is the 
CEO and Chief Engineer of the St. Francis Levee District in 
Arkansas. Mr. Rash is responsible for all operations of the St. 
Francis Levee System, which extends in Northeast Arkansas and 
covers seven counties with 235 miles of levee.
    And Senator Tester has the last introduction.
    Senator Tester. Well, thank you, Chairman Pryor.
    It is my pleasure to introduce Representative Bob Mehlhoff. 
Bob made a career out of being a math and science teacher. 
After that, he ran and was elected to the State legislature, 
the State House from the West side of Great Falls, where one of 
the levee problems exists right now, so he can give us an on-
the-ground view of it. He is a decent guy and a fair softball 
player. [Laughter.]
    Thank you, Mr. Chairman.
    Senator Pryor. Alright. Great.
    Well, since we are all set up here, Representative 
Mehlhoff, why don't we start with you and go ahead and give 
your testimony. And I think we would like a 5-minute opening 
statement. If you could limit your statements to 5 minutes, 
that would be great. And, of course, all of your written 
statements will be placed in the record.

TESTIMONY OF THE HON. ROBERT MEHLHOFF,\1\ DISTRICT 26, MONTANA 
                    HOUSE OF REPRESENTATIVES

    Mr. Mehlhoff. Thank you, Senator Pryor, for inviting me 
here, and Senator Landrieu, and also Senator Tester, thank you 
for your kind comments about my softball ability. [Laughter.]
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Mehlhoff appears in the appendix 
on page 62.
---------------------------------------------------------------------------
    My name is Robert Mehlhoff and I am a State Representative 
from District 26 in Montana. I represent the West Great Falls 
Flood Control Drainage District and also the Vaughn Small 
Drainage District.
    For the sake of time, I will quote statistics from Great 
Falls Levee only. The Vaughn Levee is smaller, but has 
proportionately fewer properties.
    The Great Falls Levee System is a 7.65-mile project. It is 
designed, engineered, and constructed by the Corps of Engineers 
and was completed in 1987 at a cost of over $10 million Federal 
and $2 million local. The levee has been inspected annually by 
the Army Corps and has passed every annual inspection. A 
periodic or 5-year inspection was just completed, but we have 
not received the results yet. We anticipate no problems in that 
particular inspection, however.
    Now the Flood District has been told that in addition to 
the Army Corps' inspections, there will be new and costly 
requirements from FEMA for levee accreditation from the 
National Flood Insurance Program. At about the same time Great 
Falls learned that FEMA will require accreditation for the 
levees, we also learned that the Army Corps no longer performs 
these accreditations. Without the Corps, the communities alone 
will have to bear the cost of private engineering firms to 
conduct this expensive study.
    Since the levees were built, the Corps of Engineers have 
accepted responsibility to ensure levee safety. In fact, other 
levees in Montana have been certified by the Seattle District, 
as was stated earlier by Senator Tester. The Army Corps and 
FEMA's cooperation that had worked for decades no longer exists 
and the losers are the levee districts that will be forced to 
pay for these additional requirements.
    The levee districts in Great Falls and Vaughn are small, 
sparsely populated, and low-income areas. All together, there 
are approximately 1,000 properties behind the nearly eight 
miles of levees. Great Falls and Vaughn simply do not have the 
population or the tax base to pay for these increased FEMA 
requirements without the help of the Corps. As if there wasn't 
enough, we are told that they may have to redo these expensive 
studies every 5 to 10 years.
    FEMA has asked Great Falls, the flood district, Cascade 
County, to enter into a Provisionally Accredited Levee 
Agreement, the PAL, with FEMA. The PAL would obligate the 
community to accept full responsibility for levee certification 
and the costs that come with it, and it would set a deadline of 
2 years for the completion of certification process. If we do 
not sign a PAL agreement, our levee will be de-accredited as 
soon as FEMA's new maps go into effect. The flood insurance 
will become prohibitively expensive for my low-income and 
moderate-income constituents. We cannot afford the cost to pay 
a private engineer to certify the levees, and we cannot afford 
the flood insurance if we do not complete the certification 
process. This dilemma is having a devastating effect on our 
area.
    I appreciate that the fact that FEMA and the Army Corps 
have at least come to Great Falls to do some community 
outreach, and we are grateful to Senator Tester for his work to 
help bring representatives from these agencies to hear 
firsthand from the community. But the fact remains that for 
Great Falls and many other small cities and many other towns in 
our country, we do not have the resources to fund our own levee 
accreditation required by FEMA, and it should not take the 
personal intervention of a U.S. Senator for FEMA and the Army 
Corps to work together to hear from folks and to come up with 
some decisions.
    Because of the economy, folks in my district are having a 
difficult time making ends meet. Many families could lose their 
homes if large unanticipated costs are added to their monthly 
expenses. People who want to sell their homes are finding fewer 
prospective buyers willing to take a chance to purchase a home 
in the affected area.
    We had over 800 people show up, many in a Montana blizzard 
with chill factors well below zero, to sign a request of our 
Congressional delegation to find a solution. That is the degree 
of concern that is out there.
    We have had many meetings and conferences called with the 
Corps and FEMA. We feel that the buck keeps getting passed back 
and forth and we are not getting definite answers on what Corps 
data can be used in the certification process. A decision on 
what data can be used is essential to determine what FEMA 
certification will cost our local community.
    We need the Army Corps and FEMA to sit down, go through our 
data, and determine if there is sufficient data for the two 
agencies to certify our levee. The Army Corps of Engineers 
needs to represent our interests in this process. Essentially, 
our levees exist today as they did the day they were built. We 
cannot understand why the Corps of Engineers will not or is not 
allowed to stand by their work.
    I would be happy to answer any questions. I have some 
solutions that I have submitted and I would be more than 
thankful that you guys did give us this opportunity, and I will 
submit any information you request.
    Senator Pryor. Thank you very much, and before we move to 
the next witness, would you like to comment on Senator Tester's 
softball ability? [Laughter.]
    Senator Tester. That is out of order, Mr. Chairman. 
[Laughter.]
    Mr. Mehlhoff. A great third baseman. You don't want to be 
anywhere around where that ball comes in from third base and 
incoming to first base.
    Senator Pryor. There you go. Good. Dr. Maidment.

    TESTIMONY OF DAVID R. MAIDMENT,\1\ DIRECTOR, CENTER FOR 
RESEARCH IN WATER RESOURCES, AND HUSSEIN M. ALHARTY CENTENNIAL 
CHAIR IN CIVIL ENGINEERING, THE UNIVERSITY OF TEXAS AT AUSTIN; 
 AND CHAIR, COMMITTEE ON FLOODPLAIN MAPPING TECHNOLOGIES, AND 
CHAIR, COMMITTEE ON FEMA FLOOD MAPS, NATIONAL RESEARCH COUNCIL, 
                     THE NATIONAL ACADEMIES

    Mr. Maidment. Good afternoon, Chairman Landrieu and 
Chairman Pryor, and Senator Tester and Members of the 
Subcommittees. Thank you for the opportunity to testify today. 
It is an honor and privilege to do so.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Maidment appears in the appendix 
on page 64.
---------------------------------------------------------------------------
    My name is David Maidment and I am the Director of the 
Center for Research in Water Resources at the University of 
Texas at Austin. I chaired two National Research Council 
Committees concerning FEMA's floodplain maps. References to 
these reports and more detailed arguments than I will present 
today are contained in my written testimony. My testimony today 
addresses the accuracy of FEMA floodplain maps.
    FEMA has undertaken an ambitious program to provide the 
Nation with coverage of digital Flood Insurance Rate Maps. The 
first phase of this program, called Flood Map Modernization, 
operated from 2003 to 2008, and a subsequent phase, called Risk 
Map, is now in operation. The Committees that I chaired 
assessed flood mapping practices during the Flood Map 
Modernization period. I will begin with the work of the 
Committee on Floodplain Mapping Technologies.
    During the annual appropriations hearings for Flood Map 
Modernization, concerns were expressed to Congress that the 
underlying framework data used as input to the flood mapping 
progress were not of adequate quality in much of the Nation to 
properly support the creation of new digital flood maps. The 
underlying framework data consists of two components: First, 
land surface reference information that describes streams, 
roads, buildings, and administrative boundaries; and second, 
land service elevation information which defines the topography 
or shape of the land's surface. The Committee concluded that 
the land surface reference information, which is derived from 
regularly updated aircraft imagery, is adequate to support 
floodplain mapping. The land surface elevation information is, 
however, more questionable.
    The main source of land surface elevation information is 
the National Elevation Dataset (NED), which is derived from 
contour information in U.S. Geological Survey (USGS) 1-to-
24,000 scale topographic maps which were made over a long 
period and have an average date of 1970. FEMA's floodplain 
mapping standards call for elevation data that is approximately 
10 times more accurate than the data in the National Elevation 
Dataset. This means that the National Elevation Dataset is too 
old and inaccurate to use for floodplain mapping.
    The committee concluded that a new National Digital 
Elevation Data Collection Program (NDEP), which it named 
Elevation for the Nation, is required, and that light detecting 
and ranging (lidar) should be the primary technology for 
acquiring digital elevation data. The data arising from 
Elevation for the Nation might have many beneficial uses beyond 
floodplain mapping and management.
    Following completion of that study, FEMA and National 
Oceanic and Atmospheric Administration (NOAA) asked the 
National Research Council (NRC) to conduct a further study on 
flood map accuracy and the Committee on FEMA Flood Maps was 
formed. Key components of the uncertainty of flood mapping are 
hydrology, how large is the flood flow, hydraulics, how deep is 
the floodwater, and topography, what is the elevation and shape 
of the land surface.
    In collaboration with the North Carolina Floodplain Mapping 
Program, the committee carried out detailed case studies to 
compare hydrologic, hydraulic, and topographic uncertainties in 
three physiographically significant mountain areas: The 
mountainous west of North Carolina, the rolling hills in the 
Piedmont Region of North Carolina, and in the very flat coastal 
plain. We chose North Carolina for these case studies because 
the State had already collected lidar data Statewide to support 
its flood mapping efforts.
    Now, I might also add that North Carolina's flood maps are 
the best in the Nation. In my own State of Texas, half of the 
counties have no digital floodplain maps.
    The committee concluded that the largest effect by far on 
the accuracy of the flood maps is the accuracy of the 
topographic data. A comparison of light detecting and ranging 
(lidar) data and the National Elevation Dataset around three 
North Carolina streams revealed random and sometimes systematic 
differences in ground elevation of about 12 feet, which 
significantly affects predictions of the extent of flooding. 
These large differences exceed FEMA's stated error tolerances 
for terrain data by an order of magnitude.
    As Risk Map develops, there has been a significant policy 
shift by FEMA to emphasize collection of better land surface 
elevation information as a precursor to further floodplain 
mapping activities. FEMA is also moving from simply showing 
where Flood Hazard Zones are to communicating flood risk for 
individual structures by adding other information such as the 
depth of flooding to the maps. The resulting flood maps should 
be more accurate and informative and should address the 
concerns with land surface elevation information identified by 
the National Research Council Committees.
    Thank you again for the opportunity of testifying today. I 
will be happy to address your questions.
    Senator Pryor. Thank you. Ms. Medlock.

TESTIMONY OF SAM RILEY MEDLOCK,\1\ POLICY COUNSEL, ASSOCIATION 
OF STATE FLOODPLAIN MANAGERS, AND MEMBER, NATIONAL COMMITTEE ON 
                          LEVEE SAFETY

    Ms. Medlock. Thank you. My name is Sam Riley Medlock. I 
represent the Association of State Floodplain Managers. First, 
we thank Chairman Landrieu, Chairman Pryor, Senator Tester, and 
the other Members of these Committees for your attention to the 
issues related to our Nation's flood risk and levees.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Medlock appears in the appendix 
on page 69.
---------------------------------------------------------------------------
    Association of State Floodplain Managers (ASFPM) and its 29 
chapters represent more than 14,000 State and local officials 
and others who are the Federal Government's partners in the 
national effort to identify and reduce the loss of life and 
property in floods.
    Today, my testimony addresses the challenges and 
opportunities at the nexus of levees, flood maps, and flood 
insurance. By holding this hearing on both levees and maps, the 
Subcommittees recognizes the relationship between these two 
issues, that they are intertwined. ASFPM appreciates that 
recognition and would further add the interrelation of flood 
insurance.
    Because of concerns about flood insurance as an added cost, 
we are now hearing calls to withhold maps, keep risk under 
wraps, and pour more Federal money into flood control 
structures as the only approach to dealing with flood hazards, 
despite their demonstrated limitations and the residual risk 
that exists behind levees. In fact, we must recognize that 
areas behind levees are at risk from flooding. Although some 
may deny that risk, resist safety notices on maps, argue that 
their levees will never fail, and that folks behind those 
levees do not need flood insurance, the simple fact is that 
those areas behind levees are at risk and the American people 
have a right to be informed of that risk and be given every 
opportunity and tool to prepare themselves for the next flood.
    The problem with these elements--maps, levees, and flood 
insurance--have crystallized to create an important opportunity 
for all of us this afternoon and through the National Policy 
Dialogue to identify ways to better manage flood risk. Today, 
at least four significant policy initiatives are underway that 
can lead to a more complete and integrated flood risk 
management approach for the Nation.
    One is the National Committee on Levee Safety that was 
mentioned earlier by Secretary Darcy. This Committee on Levee 
Safety was created by the Water Resources Development Act of 
2007. The committee has completed its report to Congress and is 
in the process of developing legislative recommendations. I 
represent the ASFPM on that committee.
    Additionally, FEMA Administrator Craig Fugate has launched 
a comprehensive initiative to reconsider or rethink the 
National Flood Insurance Program, actively seeking bold ideas. 
We look forward to hearing back from FEMA on that initiative 
with substantive recommendations for policy and even 
legislative reform in the next couple of years and urge your 
timely attention to that when those recommendations for reform 
come through.
    Additionally, the administration recently reestablished the 
Federal Interagency Floodplain Management Task Force (FIFMTF), 
which had been dormant for 15 years but has great potential to 
unite the Federal family, not just Corps and FEMA, but also 
those agencies that put tremendous Federal resources behind 
levees.
    And then, last, the Council on Environmental Quality is 
working to redesign the fundamental principles and guidelines 
associated with big national water policy and projects.
    In the time that I have left, I would like to raise three 
important issues, one being that levees have too long been the 
sole tool, the biggest tool, the most visible tool that State 
and local governments and Federal leadership goes toward to 
manage flood risk. That, combined with the 1 percent or so-
called 100-year flood standard, has, if you will, painted State 
and local government into the situation, into the corner in 
which we find ourselves today. When you add to that the 
accreditation, a needed consideration of the state of the 
Nation's levees along with the requirements under the National 
Flood Insurance Program, we recognize that there are real 
concerns that communities have and that families and businesses 
have with that flood insurance requirement and would point to 
some very bold initiatives and ideas that are emerging from 
this national dialogue.
    For example, levee districts could obtain group flood 
insurance policies to protect every property owner or structure 
in that leveed area, pool those premiums, but it would also 
engage those policy holders in the health and maintenance of 
that levee in order to keep premiums affordable. Additionally, 
that same approach could be used by communities.
    In closing, we would request permission to submit more 
detailed comments into the record after today's hearing and 
look forward to answering your questions.
    Senator Pryor. Thank you.
    Mr. Rash, I know that you have someone else who is with you 
from the Mississippi Valley Flood Control Association, George 
Grugett. I know you wanted me to recognize him, but go ahead. 
We would love to hear your testimony.

  TESTIMONY OF ROBERT G. RASH,\1\ CHIEF EXECUTIVE OFFICER AND 
     CHIEF ENGINEER, ST. FRANCIS LEVEE DISTRICT OF ARKANSAS

    Mr. Rash. Yes, sir. Thank you. Madam Chairman and Mr. 
Chairman, other Members of the Subcommittee, Senator Tester, I 
would like to thank you for the invitation to be here today. 
Thank you very much. And I would like to discuss the concerns 
that we as local citizens have with the FEMA Flood Map 
Modernization process.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Rash appears in the appendix on 
page 77.
---------------------------------------------------------------------------
    My name is Rob Rash and I am the Professional Engineer 
currently serving as the Chief Executive Officer and the Chief 
Engineer of the St. Francis Levee District of Arkansas. Our 
headquarters are in West Memphis, Arkansas, and I maintain 235 
miles of levee, 160 miles of Mississippi River mainline levee 
and 75 miles of St. Francis Basin tributary levees. It may be 
important to note that our district began in 1893, and so we 
have been around quite some time.
    These levees are part of the Mississippi River and 
Tributaries Flood Control Project, which contains a total of 
3,787 miles of levees, along with other structures, such as 
flood walls, reservoirs, pumping plants, floodplains, 
diversions, and every other proven method to prevent flooding 
from the 41 percent of the waters of the United States that 
flow to the Gulf of Mexico.
    Since the MR&T project is a unique, one-of-a-kind Federal 
flood control project, let me say that the law that established 
this project states the project for flood control of the 
Mississippi River and its alluvial valleys is adopted and 
authorized as set forth and recommended in the report submitted 
by the Chief of Engineers in House Document 90. That document 
states that the flood used to design this plain is predicted by 
the Weather Bureau as the maximum possible and by the 
Mississippi River Commission (MRC) as the maximum probable 
flood.
    For the sake of time, I have not quoted the law nor the 
document exactly or in their entirety. It may be well to 
partially quote a little more of the law that says that the 
works and outlets constructed under the provisions of this Act 
shall be built in a manner and of a character which fully and 
amply protect the adjacent lands. This law and this project has 
served the country well, because for the last 82 years, no 
project levee built to MRC standards has ever failed, despite 
major floods in nine of those years, some of those record 
proportions.
    As I am sure, the flood maps are not new to us. The thing 
is that the new fact of the flood maps is the area behind the 
levees, within the boundaries of the St. Francis Levee District 
of Arkansas, were shown as a Zone X on the old maps and are now 
shown as a Shaded Zone X. The Zone X was a 500-year level of 
protection, which was adequately shown, as you show here, 
Senator Pryor. We are now in a Shaded Zone X area which does 
not mandate flood insurance but strongly recommends it. This 
recommendation and history show us that when a Federal entity 
requests or recommends flood insurance, Federal mortgage 
companies follow suit.
    The millions of citizens and those that now inhabit the 
alluvial valley of the lower Mississippi River have paid levee 
taxes for over 100 years. They consider that these taxes have 
been paid in lieu of flood insurance. The levee taxes are 
collected and expended by the levee boards to finance the day-
to-day operations and maintenance of these levees and is of 
great concern to us and the citizens of the valley that are not 
going to pay flood insurance and levee taxes. The local 
people's investment in our local levee system since we began 
building them in the early 1800s is in excess of $17 billion, 
which includes the original levee, the construction of the 
original levee and the maintenance of these levees for the last 
150 years.
    In conclusion, my letter of invitation to appear before you 
asked for my recommendations. My first recommendation will be 
that FEMA use the best engineering and hydraulic information 
available in the revisions of the Flood Rate Insurance Maps and 
that they discontinue the practice of considering that every 
Flood Protection Area in the Nation as being the same when, in 
fact, they are different.
    FEMA needs to take into consideration what has been done to 
protect against floods and they also need to consider what the 
demands for the sale of more and more flood insurance will have 
on the economy of this Nation. The MR&T deserves a separate 
designation on all Flood Insurance Rate Maps that clearly state 
that protection is above the 500-year flood and no insurance is 
required.
    We are aware of the need that FEMA has to collect funds, 
but we are also aware of the consequences their present actions 
will have on the future of this Nation, especially in the rich 
alluvial valleys that produce so much that is necessary in our 
day-to-day lives, including, but not limited to, the majority 
of the food and fiber required for this country.
    The Mississippi River is a critical natural resource and 
one of our Nation's greatest assets. At 2,320 miles, it ranks 
as one of the largest rivers, supplying 18 million people with 
drinking water and linking agricultural, timber, coal, and 
other producers to markets around the world. Each year, the 
Mississippi River Valley generates more than $12 billion in 
agriculture and forest products and $213 billion in 
manufacturing goods. The return on the Federal investment for 
the MR&T project is 27-to-1. It is the finest flood control 
project in the country, and I ask that you please recognize 
that in the flood map updates.
    That concludes my statement and I will answer any questions 
that you may have.
    Senator Pryor. Thank you. Dr. Suhayda.

TESTIMONY OF JOSEPH N. SUHAYDA,\1\ INTERIM DIRECTOR, LOUISIANA 
 STATE UNIVERSITY HURRICANE CENTER, AND CHAIRMAN, INDEPENDENT 
 TECHNICAL REVIEW COMMITTEE, FEMA/USACE LOUISIANA STORM SURGE 
                             STUDY

    Mr. Suhayda. Thank you very much. Senator Landrieu, it is 
good to see you again, Chairman Pryor and Senator Tester. My 
name is Joe Suhayda. I am the Interim Director of the Louisiana 
State University (LSU) Hurricane Center. I want to describe 
some recent experience of the State of Louisiana and the 
communities within that State as a result of both Katrina and 
then the remapping effort on the part of the Federal 
Government, and then the reconstruction of many of the levee 
systems that are critical to Louisiana.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Suhayda appears in the appendix 
on page 80.
---------------------------------------------------------------------------
    A lot has been happening in Louisiana. Most of the stories 
you can tell around the country, I think I can top, but I 
won't. But we do have a wealth of experience. I did serve as 
the Chairman of the Technical Review Committee and participated 
in the preparation of the maps for Louisiana. I also worked 
with several of the communities when it came to appeal the 
maps. So I saw how they were prepared and how it impacted the 
communities. My knowledge that I brought to the process, 
because I participated in it, was critical to the success that 
we have so far had in dealing with the appeal process in FEMA.
    In terms of the accuracy of the maps, we did find a number 
of local topographic and bathymetric issues that limited the 
accuracy of the maps. Senator Collins and Dr. Knight referred 
to the local effects and the lack of ability to pay for what is 
needed to be done at the local level. In many cases, we had the 
data at the local level already.
    We had concerns, also, with the mapping of the stillwater, 
which is part of the coastal evaluation, and the wave heights. 
The model being used, called the Wave Height Analysis for Flood 
Insurance Studies (WHAFIS) model, we believe is not appropriate 
for Louisiana. We believe the complexity of the coast exceeds 
the ability of that model. The Corps does not use that model in 
its own assessment for the levee protections.
    We also had questions with regard to the procedural issues. 
Did FEMA's contractors follow FEMA's guidelines? We felt 
obliged to follow the guidelines in preparing the appeal. We 
found inconsistencies when we looked through the details 
between what the contractor did originally and then what the 
guidelines were.
    As far as mechanisms for resolution, dispute resolution, we 
have evolved to the point now where, as a result of the 
involvement of Senator Vitter, there have been a series of 
meetings set up outside of the normal, I would say, appeal 
process procedure, where we have met with the technical people 
that created the maps, the contractors, and related some very 
detailed criticisms and suggestions for change.
    The maps are being changed. I feel like we made a big step 
forward. My concern is that the accommodation that FEMA has 
made to our concerns in Louisiana are ad hoc, that the next 
time we do this, and I will mention that there is going to be a 
next time, I am not sure that we have a new protocol for 
dealing with appeal issues. But certainly things are improving 
in terms of interacting with FEMA.
    Levee inspection, I just want to use, and levee 
certification, a couple of examples. We have had levees that 
were in the past, in a sense, certified for 100-year protection 
at a fixed elevation. The criteria changed. Hence, these levees 
no longer were certifiable. Hence, they are taken out of the 
analysis of flood protection. So we have communities right now 
that have had levee protection for a number of years, that had 
the Base Flood Elevation at three feet. Under the new maps, 
they have 11 feet, and the irony is, outside the levee system, 
the stillwater is 11 feet. It is like the levees don't even 
exist. So the Federal Government and the local community have 
cost shared on levees that are not included in the analysis.
    Plaquemines Parish, we have BFEs in some of the protected 
areas that are 18 feet, and I just am trying to estimate here. 
I think 18 feet is close to the ceiling elevation of this room. 
That is how high the new buildings would have to be built.
    In terms of coastal restoration projects and non-levee 
structures, Louisiana is replete with roadways and railroads 
and other non-levee structures that should be included in the 
analysis that get unequal treatment. We have coastal 
restoration projects that we are planning in terms of barrier 
restoration, in terms of ridge restoration, that we believe 
should be treated through a process similar to levee 
certification so that we could certify these coastal features.
    And just to conclude, I do believe that a Cooperative 
Technical Partnership is the means for preparing the State of 
Louisiana to take over more responsibility and be more 
involved, because we will be revising the maps and redoing the 
area around New Orleans in the 2012 to 2013 time period when 
the new levees are completed.
    Thank you very much.
    Senator Landrieu. [Presiding.] Thank you.
    Chairman Pryor, I appreciate you allowing me just to make a 
brief statement. Unfortunately, I am going to have to slip out, 
but I just wanted to thank our witnesses. I really appreciate 
your testimony. I was particularly moved by, Mr. Rash, your 
testimony about the effort that your community has undergone 
since 1892. I mean, New Orleans will be celebrating its 300th 
year in 2018, and literally for 300 years, the people of New 
Orleans and surrounding areas have been building levees and 
investing millions and millions and billions and billions of 
dollars, and we have to find a way in this country to honor 
that and respect the money that the taxpayers have already paid 
and not require them on top of all that to pay exorbitant 
insurance rates, as well. I mean, that is the problem.
    And under insurance rates now, which I am going to submit 
for the record, many of my constituents--this started before 
Hurricane Katrina, but it really came to a head after 
Hurricanes Katrina and Rita--I cannot tell you the number of 
people that have come to me and said, ``Senator, I can afford 
my mortgage. I cannot afford my insurance.'' They are paying 
taxes to a levee district. They are paying exorbitant insurance 
rates. And we have to find a better way, whether it is along 
the Mississippi, for which we are very appreciative and 
understand it is very unique, the Mississippi River and its 
tributary system, which you beautifully outlined.
    And so, Ms. Medlock, I would just say that I look forward, 
and I think the Chairman and I both look forward to working 
with you and your Association to try to find a better way, more 
community input, more local input, more support for the 
communities, one size doesn't fit all, honor the money that has 
already been spent, and try to find an affordable way for this 
country to have safe communities and peace of mind. And we know 
that levees aren't the only answer, but when we build them, 
they shouldn't break or bust or be breached, and we are looking 
internationally.
    I will tell you--I will conclude with this--I hope that 
Assistant Secretary Darcy will accompany me to the Netherlands, 
where they protect their people from floods that might occur 
once every 10,000 years, and they do it in a very affordable 
manner and they don't have, or haven't had since 1953, a 
massive flood. We can't seem to be able to afford or find a way 
to protect our people from one every 100 years and are 
struggling with the one to every 500 years and have people 
building 20 feet above the ground. Senior citizens, the 
disabled community, I mean, they are having serious issues with 
what is happening to us on the coastal area. I can only 
imagine, Senator, in your State of Montana and inland in 
Arkansas.
    But this really is a big problem, and I thank Senator Pryor 
for joining me in this effort. It is not going to be easy, but 
it is imperative that we find some solutions here for our 
people. And I thank you and I am sorry that I have to leave 
early.
    Senator Pryor. [Presiding.] Thank you, Senator Landrieu. 
Thank you for your leadership, and I am glad you were able to 
stay as long as you did.
    I have a few questions here and I think I would like to 
start with Mr. Rash. Mr. Rash, you see this map up here of 
Marion, Arkansas, which is, if I understand it, it is inside 
your territory----
    Mr. Rash. Yes, sir.
    Senator Pryor [continuing]. The St. Francis Levee 
District----
    Mr. Rash. Actually, my house is on that map.
    Senator Pryor. Is that right?
    Mr. Rash. Yes, sir.
    Senator Pryor. How much of your territory that is in the 
St. Francis Levee District, how much of your territory is in 
the new Shaded Zone X on the maps?
    Mr. Rash. The three counties that are being remapped right 
now are completely shown in the Shaded Zone X within our 
district. If all seven counties in our district were remapped, 
they would all be shown in a Shaded Zone X, at best.
    Senator Pryor. Can you give us a sense of what your 
experience has been with FEMA and the Corps of Engineers during 
this process?
    Mr. Rash. Senator, we had a meeting--I will go back 2 years 
ago--that you set up in our office with FEMA representatives to 
sit down and discuss these very issues about the Shaded Zone X 
and the delineation of the Shaded Zone X. They listened to our 
concerns and we did not hear back.
    However, we did have a meeting Monday. We did have a 
meeting Monday with FEMA representatives in Washington, D.C., 
about the very same issues. The concern is that the actual 
flood maps are complete in our area. They just have not become 
effective. But the entire area in Crittendon County within our 
district is shown as a Shaded Zone X. We have voiced our 
concerns. We were told Monday that the map will go out as is, 
and we have some concerns about the delineation, as we have had 
all along, the delineation of that Shaded Zone X because of 
the--when you look back at other areas, the 1927 flood, you can 
see the areas that were submerged and that should follow that 
Shaded Zone X, which is what we recommended to FEMA.
    So our process has been somewhat cumbersome, but they have 
worked with us recently very well.
    Senator Pryor. OK. Can you tell the Subcommittee here how 
often local communities in your area face issues of flooding?
    Mr. Rash. Senator, I heard mention of the area in 
Millington and the 10 to 12 inches of rain that they received 
and were flooded. We received 8 to 10 inches of rain in that 
time period. We had some homes that were flooded, but certainly 
nothing from the riverine flooding that is portrayed on these 
Flood Insurance Maps from the Mississippi River. So we have 
these 8 to 10-inch rains.
    I would like to mention that Cedar Rapids and the effects 
there in the Northern part of the country, we saw, I think we 
probably all saw some of the levee breaches there. I want to 
point out that the Mississippi River and Tributaries Project, 
it is designed for 41 percent of the continental United States, 
everything from the Continental Divide in Colorado to the 
Western tip of New York State and even two Canadian provinces. 
Any rainfall event that occurs in that area comes right by our 
house in Arkansas. So that system is set up in a much different 
dynamic than anything else in the country.
    And so my entire concern, and you well know this, the 
entire concern is that as these isolated flooding events, as 
occurred in Millington and in Nashville and in other areas, in 
41 percent of the continental United States, you will have 
isolated flooding events. However, when it came past our house 
within the confines of the floodway, within the confines of 
that, we still had 18 feet of levee remaining as that river 
crested with the results of all those isolated flooding events.
    So it is a different dynamic. It is a different project and 
we don't feel that FEMA is adequately reflecting that level of 
protection. I have heard mention of the 100-year level of 
protection and the 100-year flood and how it is portrayed on 
the maps. There is nothing that portrays anything from 100 
years up, and the areas in our entire district have been taken 
out of that 500-year flood zone, or 500-year flood protected 
area and placed in this Shaded Zone X, which gives an element 
of concern that does not exist.
    Senator Pryor. I have a couple more questions for you, and 
then I am going to turn it over to Senator Tester, and then I 
have a few follow-ups with the rest of the panel.
    You said in your opening statement that you think the 
Mississippi River and Tributaries, MR&T, should either be 
exempted from the flood mapping or at least treated 
differently.
    Mr. Rash. Yes, sir.
    Senator Pryor. Is that why, because of the huge Federal 
investment and basically because of the track record of the 
system?
    Mr. Rash. Yes, sir. And I understand the need that FEMA has 
mentioned and that Congress has mentioned of warning people of 
the risk, and I understand that. We want it accurately warned. 
I have seen the number on the 26 percent chance of having flood 
events occur in a 30-year mortgage. That is a blanket 
probability or statistic across the country. It applies the 
very same in Denver, Colorado, as it does in the Everglades. 
And so the difference in the two, it is not taken into account, 
the protective measures that are there.
    And the MR&T has a history of protection and it needs--in 
my opinion, there needs to be a separate designation that says 
this area protected by the Mississippi River and Tributaries 
Project, that would serve the purpose of warning people of the 
risk of living behind the levee, but it would also say that 
this area is protected above the 500-year level of protection.
    Senator Pryor. Let me ask one last question to you, and 
that is on the map that we have there that has the Shaded Zone 
X, the whole map is shaded gray area, there is that note that 
encourages people to purchase flood insurance. What is your 
concern about basically this entire county and other counties 
like it being in the Shaded Zone X?
    Mr. Rash. We had a meeting in West Memphis. It was June 21, 
2010, and representatives from FEMA Region VI came to display 
the flood maps. And even the FEMA representative there in his 
presentation made this statement, that FEMA is--their minimum 
standard is to recommend flood insurance in the Shaded Zone X 
area, but they are finding that the lenders, the mortgage 
companies, are requiring it. And so our concern was solidified 
by that statement.
    Senator Pryor. So here you have the problem of people 
paying their levee taxes----
    Mr. Rash. Yes, sir.
    Senator Pryor [continuing]. Paying for their levee 
district, paying for the protection, and then also having to 
pay flood insurance.
    Mr. Rash. Yes, sir. And in the MR&T and in our entire levee 
system, please understand that there is a $13 billion Federal 
investment in that system and there is a $17 billion investment 
of local people's money in that system over the last 100 years, 
115 or 150, depending on the area you are looking at. So it was 
noted in the 1928 Flood Control Act that there was no cost 
sharing to be done by the local people because they had already 
paid their cost share up front. So the money expended by the 
local people from 1928 to now is the day-to-day operations and 
the maintenance on these levee systems themselves, and those 
are substantial investments.
    Senator Pryor. Senator Tester.
    Senator Tester. As long as Senator Pryor has you warmed up, 
Mr. Rash, we will keep going.
    Mr. Rash. Yes, sir.
    Senator Tester. You said you live up in this area.
    Mr. Rash. Yes, sir.
    Senator Tester. When did it change from the diagram on your 
left to the Shaded Zone X?
    Mr. Rash. The map, I believe, becomes effective October 6. 
We were granted a 90-day extension, so----
    Senator Tester. October 6?
    Mr. Rash. Yes, sir.
    Senator Tester. On the map on the left, did you need to buy 
flood insurance?
    Mr. Rash. No, sir.
    Senator Tester. You did not. The map on the right, you are 
saying the realtors are saying you have to buy health 
insurance--you have to buy flood insurance?
    Mr. Rash. Yes, sir. It is--the indication is that the 
mortgage companies will require it.
    Senator Tester. Did anything change with the levees?
    Mr. Rash. No, sir. As a matter of fact, we have received 58 
continuous outstanding maintenance awards from the Corps of 
Engineers, 58 straight years on those levees.
    Senator Tester. OK. Do you have a loan on your house?
    Mr. Rash. Yes, sir, I do.
    Senator Tester. Are you going to have to buy flood 
insurance?
    Mr. Rash. Yes, sir.
    Senator Tester. Do you have any idea what flood insurance 
is going to cost you?
    Mr. Rash. I do not, actually. I was looking at this 
preferred risk policy, which under that Shaded Zone X and 
because the levees are certified, we would fall under that, and 
it states here that for a $100,000 home, it is about $600 per 
year.
    Senator Tester. OK. Thank you very much.
    Mr. Rash. Yes, sir.
    Senator Tester. Before I go on with some questions for 
Representative Mehlhoff, I do want to say thanks to Secretary 
Darcy and Dr. Knight for being here for this portion. I very 
much appreciate you folks sticking around. That speaks well of 
you.
    Representative Mehlhoff, I appreciate you coming here. As I 
said earlier, it is a long ways from Montana to Washington, 
D.C. I also appreciate your tireless effort on this issue for 
your constituents.
    You have seen in the levee certification inspection from a 
local perspective. Would you please let me know or explain to 
me what you see as a potential solution?
    Mr. Mehlhoff. Thank you, Senator Tester, for your efforts, 
too, on this. What I would see from the local perspective that 
we have is, first of all, we are also--our flood levee system 
was designed for a 500-year flood, and we have had very little 
change in our area over the years. Like, some areas have an 
awful lot of new development. Ours looks about like it did 50 
years ago. So we have had very little change upstream. In fact, 
modern farm practices with no-till farming is holding the 
moisture even more in place, which should result in even less 
chance of runoff in the spring.
    But what I see as a solution to this is the Corps of 
Engineers needs to take over responsibility for levee 
certification. The Corps has the data all the way back to the 
construction of our two levee systems in Cascade County, plus 
data from annual and periodic inspections.
    Second, when the annual and periodic inspections are 
completed, the Army Corps should require their contractors to 
collect enough data to meet FEMA's certification requirements. 
That would result in a great cost savings to our local 
taxpayers.
    Third, the local levee district elected officials need to 
be given back their original responsibility of overseeing levee 
maintenance only. They are, for the most part, unpaid people 
that thought when they took the job for the local districts 
their only responsibility was going to be to maintaining 
levees, and that is a very good responsibility for them because 
they see the levees on a day-to-day basis. Now they are told 
they are the owners, they are responsible, and they have some 
liability problems, and they are saying, wait a minute. We are 
not getting paid for doing this and we are risking personal 
liability problems? That is a real dilemma.
    And last, the Corps of Engineers should do a risk 
assessment on all Corps-sponsored levees around the Nation and 
FEMA should exempt levee systems designed to withstand a 100-
year or more flood that the Corps deemed to be of low risk.
    Everybody is being treated as one here, one shoe fits all, 
and has been said by Mr. Rash, that is the problem that we are 
facing, is that is not the case in many areas. Some areas have 
levees that do have a lot of problems, but our area and 
apparently Mr. Rash's area are living under levees that have 
been well maintained and should be put in a different category 
to make the certification process much easier.
    Senator Tester. Thank you. Before I head out, and I 
appreciate those recommendations, I want to thank everybody on 
this panel. I usually ask everybody a question or two, but the 
fact is, I think, that the explanations you gave from your 
perspectives add a lot to this hearing and they are critically 
important.
    I would like to think this issue will be resolved after we 
come back from the August recess, but I have a notion it won't 
be, and so I appreciate you folks presenting your opinion and 
being open to talk about the situation from your perspective. 
So thank you all for being here.
    Senator Pryor. Thank you, Senator Tester.
    I have a few follow-up questions. You all don't worry about 
those buzzes there. That is just telling us what is going on 
the floor.
    Let me start, if I may--I will go ahead and start with you, 
Ms. Medlock, because I have a question about this sheet here\1\ 
and I just don't understand the policy, the rates, how they are 
set, etc. But, for example, you have seen in this map here in 
Marion, Arkansas, you see that we are in the Zone X, the shaded 
area there, what we call Shaded Zone X. And if I understand 
this right, if you are in--say you have a $100,000 home and you 
are in Zone A, which is within the 100-year floodplain, if you 
are in Zone A, it is going to be $794 a year. But if you are in 
Zone X, it is going to be $593 per year. So that is still about 
70 percent of the higher-risk flood area. Do you know how these 
rates are set?
---------------------------------------------------------------------------
    \1\ Chart referenced by Senator Pryor appears in the appendix on 
page 46.
---------------------------------------------------------------------------
    Ms. Medlock. Well, first, I would draw on the expertise of 
FEMA folks and folks within the Flood Insurance Administration 
to give detailed response. But generally, based on my expertise 
and experience on this, and also as Dr. Knight explained 
earlier that it is based on the characteristics that are there 
and you have basic rates that are set, and then the policies 
are rated farther based on things that are unique to that 
structure, for example, its proximity to the flooding source 
and, importantly, its depth.
    If I understand your question, it sounds like--and I might 
ask you to clarify it, but it sounds like you are asking, if 
you are outside of an identified Special Flood Hazard Area----
    Senator Pryor. Right.
    Ms. Medlock [continuing]. Then what is that risk based on.
    Senator Pryor. Right.
    Ms. Medlock. OK. I sensed that, and basically what it comes 
down to is the fact that there is still residual risk. And even 
if you are outside a Special Flood Hazard Area, particularly if 
you are in an area subject to inundation when a levee fails, 
you have still got a risk back there, and the policies and the 
rates and the premiums are going to reflect that risk.
    Senator Pryor. I understand that. I think what troubles me 
about this is there is not a very big change. Again, it is 
about a 70 percent difference, or it is a difference of $593 
versus $794, and I haven't done the math, but that seems to be 
about 70 percent or so to me. That if you are in, say, a 500-
year flood area versus a 100-year flood area, it would seem to 
me there would be a really big drop-off in your premium because 
the risk would be so much less. Is that not how it works?
    Ms. Medlock. It will vary a little bit. And again, I am 
answering based on my expertise as a Certified Floodplain 
Manager (CFM) for 9 or 10 years. But the difference between the 
so-called 100-year and the so-called 500-year really may not 
actually be that different because the ratings are not just 
about probability. The ratings are also about the value of the 
property that is at risk. And for a more detailed response than 
that, I would really need to rely on the experts within the 
Flood Insurance Administration or do some more digging.
    Senator Pryor. Right. I mean, I understand that, but you 
can just see, given these maps, see the really dark gray areas? 
Those would be the Zone A areas. And then the lighter gray, the 
shaded areas would be the Zone X areas. And you can see they 
are right next to each other. In terms of the property values, 
they really shouldn't be all that significantly different, 
maybe a little bit here and there, but not that significant. It 
is one community. But nonetheless, we can follow up on that 
more for our previous panel in written questions.
    Let me ask you, Dr. Suhayda, as I understand your testimony 
before, you were saying that someone that you are aware of went 
through the appeal process. Was that someone locally down 
there?
    Mr. Suhayda. There have been about five different 
communities that did submit a formal appeal and are in the 
process of being resolved.
    Senator Pryor. How does that appeal process work?
    Mr. Suhayda. There was usually a pre-release of the digital 
Flood Insurance Maps, well before the 90-day official period 
started so that the communities had some forewarning of what 
the maps might look like.
    Senator Pryor. Were those posted on the Internet or were 
they sent to the courthouse or how did people get hold of 
those?
    Mr. Suhayda. Those, as I participated in, were actually 
delivered at a meeting that FEMA called to give a preview. Then 
there was the official time when those maps were released to 
the community that triggered the 90-day appeal period. But we 
had already seen the maps before that, in most cases.
    Senator Pryor. OK. And then if you wanted to appeal, if you 
didn't agree with what was on the map, how did you actually go 
through that appeal?
    Mr. Suhayda. As described by Dr. Knight, we would look for 
technical and scientific deficiencies. We were able to redo 
many of the wave calculations, and in some cases storm surge 
calculations, which are required, and then submit updated BFEs. 
That is, we redid certain panels----
    Senator Pryor. When you say ``we''----
    Mr. Suhayda. The community, the individual parishes----
    Senator Pryor. And you paid for that?
    Mr. Suhayda. They spent an aggregate about $1 million. It 
ran about $250,000 to $300,000 per community to do this.
    Senator Pryor. So the communities paid for that out of 
their resources, whatever----
    Mr. Suhayda. That is correct. Just to illustrate a point, 
the V Zone issue for the State tied up, and I am using rough 
numbers because they were never real clear, hundreds of 
millions of dollars of public assistance projects. So there was 
no doubt that there was going to be a strong motivation on the 
part of our parishes to at least look into the validity of 
those V Zone designations.
    Senator Pryor. OK. And then what do you do? Do you write a 
letter to FEMA? How does the appeal process actually work?
    Mr. Suhayda. We prepared an appeal report, which is a 
detailed presentation of criticism, identification of 
deficiencies, and then presentation of new data, and then a 
replacement set of calculations, and then ultimately the new 
flood zones and elevations. So we had to recompute the flood 
zones and elevations within the 90 days.
    Senator Pryor. And that was all at your own expense?
    Mr. Suhayda. All at the community's expense.
    Senator Pryor. And how much did the maps change after your 
appeal process?
    Mr. Suhayda. We are not through all of them. The first 
response we are getting related to Cameron Parish is that many 
of the V Zones appear to be remapped in a subsequent set of 
maps as A Zones, and that was a major issue for Cameron Parish.
    Senator Pryor. And so that is an improvement?
    Mr. Suhayda. That is an improvement. I think more accurate, 
but it also addresses the expenditure of this public assistance 
money not only for the current situation, but the next time we 
have a problem in Cameron Parish. The V Zone issue now, I 
think, has been properly addressed.
    Senator Pryor. Was there ever a third party? I mean, I know 
you had to hire a third party, but was there a third party that 
participated in this appeal in terms of someone who reviewed 
FEMA's work versus your work, or did FEMA just evaluate the 
work that you turned in to them?
    Mr. Suhayda. They evaluate it, but, of course, they have a 
number of contractors. They have a separate contractor, 
separate from the contractor that developed the maps, they have 
a separate contractor that handles appeals. And so we dealt 
with the contractor that deals with appeals directly.
    Senator Pryor. And did you feel that you were being treated 
fairly during the appeal process? I know they are not all over 
yet, but so far, have you felt like you have been dealt with 
fairly?
    Mr. Suhayda. I would say it started off kind of slow, but 
did improve and that we are at a point now where I think our 
involvement is much more effective than the first, actually 
within the 90 days.
    Senator Pryor. And how long has the appeal been going on? 
The appeals, how long have they been going on?
    Mr. Suhayda. Oh, my gosh, some of them--we submitted the--a 
year or more, in some cases 18 months.
    Senator Pryor. Is there any sort of stay in the meantime in 
terms of flood insurance and other issues?
    Mr. Suhayda. Yes. Until we get that letter of final 
determination, we are in the process of dealing with appeal 
issues. And then there is, of course, a six-month period of 
time after that before they have to be enacted, so----
    Senator Pryor. I think you are touching on something that 
FEMA can't fix right now, or no one else can fix right now 
except the Congress, and that is that I think that there is 
something that we need to fix, and that is FEMA pretty much 
controls this whole process, start to finish. They get the 
Corps of Engineers to do the technical work on the maps. FEMA 
makes decisions on the maps. They run the Flood Insurance 
Program. They set the premiums. They feel like they have a 
fiduciary duty under the Flood Insurance Program. If there is 
an appeal, it goes to FEMA, and if it is not FEMA itself, there 
is a FEMA contracted entity, whoever that may be.
    I just think that FEMA controls this process from start to 
finish and I am not sure that is healthy, especially 
considering the fact that FEMA has, quite frankly, an incentive 
to sell insurance, sell flood insurance. But that is not really 
the subject of this hearing because that might actually fall 
under the Banking Committee in terms of reworking the National 
Flood Insurance Program, which I think we probably need to do 
much sooner rather than later.
    Let me ask you, Mr. Mehlhoff--again, thank you for coming 
from Montana--have you had any dealings with FEMA during this 
process?
    Mr. Mehlhoff. Yes, Senator, I have, and I would just like 
to say that your last comments, I totally agree with. I think 
that is something that needs to be done.
    FEMA has come to Great Falls two different times to meet 
with us. We have been told different things each time they are 
in. We seem to have a moving target on acceptable data. At 
their first meeting, they seemed to say that the data you 
originally had when the levee was certified should work for 
certification. The next time, they started backtracking on what 
they said. Now, we are not exactly sure where we stand.
    We haven't had a flood since these levees were built in 
1978, when they were finished--or 1987, I am sorry. Our last 
flood was in 1975. So the data that was originally given to us 
should be workable, but nobody seems to be able to make that 
decision to say, yes, go ahead. We can accept what you have, or 
you need this, this, and this, and then we are ready to go.
    Senator Pryor. I think we have had that experience in 
Arkansas, too. I have heard from Mr. Rash and many others who 
have been in the process that it has been very hard to get 
clear guidance and clear communication from FEMA on how all 
this is going to work, and there are a lot of particulars that 
seem to change.
    Did you want to add to that, Mr. Rash, before I move on?
    Mr. Rash. Yes, sir. We have worked with FEMA, as well, on 
the certification process. We currently have sections of levee 
on the tributary that are awaiting analysis on the Corps' 
recommendation for that certification and how it is going to be 
interpreted by FEMA.
    I would like to say something else. Dr. Knight has been 
very helpful and worked with us recently on some of these 
issues, so I do want to say that and that we did meet with them 
Monday. We went through a number of issues that we have 
addressed here today and they are looking at them. But we have 
worked with them much better recently and they have been much, 
much more receptive to our concerns.
    I also would like to say that I left out earlier, not one 
acre of area protected by MR&T levees has ever had--has flooded 
since 1928, since the Federal Government took over the 
construction of them.
    Senator Pryor. OK. Let me ask, Mr. Rash, while I have you, 
one last question for you, and that is tell us--you have how 
many miles of levee in your system?
    Mr. Rash. Two-hundred-and-thirty-five in the St. Francis--
in our district.
    Senator Pryor. OK. And your district also connects with 
other districts, is that right?
    Mr. Rash. That is correct, sir.
    Senator Pryor. And what would happen if, say, 
hypothetically, there is a district that is not in yours, but 
in an adjacent district that may have a problem, even if it is 
a minor problem, and they can't get their levee, whether it be 
certified or whatever the technical term may be. What impact 
would that have on you?
    Mr. Rash. Well, we are waiting on that very determination 
now in that scenario, Senator. We have an area north of us in 
Dunklin County, Missouri, that has been found under these new 
guidelines to be inferior and have issues and problems. The 
Corps--originally, we started off where the entire area was 
going to be decertified, everything downstream. Since then, the 
Corps has done some analysis to show the actual effects if 
there were a levee breach. They have done a breach analysis on 
that particular section of levee. We are waiting for FEMA to 
decide what the ultimate effects on the other hydrologically 
connected sections are going to be.
    The best case scenario is that the area of confinement 
where the breach analysis shows to be affected would receive 
the higher rate or the higher Special Flood Hazard Area 
designation. The remainder would get an acceptable rating and 
be certified.
    The worst case scenario is that the entire 111 miles of 
levee would be decertified and everything that would be 
protected by that would be in the highest rate of insurance or 
the highest flood risk. And it could fall anywhere in between 
and it is based on how FEMA takes the Corps--how FEMA 
interprets the Corps recommendation.
    Senator Pryor. OK. And do you know when you will find out 
how that is going to be resolved?
    Mr. Rash. I do not, Senator. When we talked Monday with 
FEMA, they did say that they were under--they had just received 
the report. In all fairness, they just received the report and 
so they are looking at all of the aspects of it and told us 
that they would get back to us on their determination.
    Senator Pryor. OK. Dr. Maidment, let me ask you, this is 
from my standpoint a technical question. For you, it may be 
just a lay question. But there is a term called Base Flood 
Elevation.
    Mr. Maidment. Mm-hmm.
    Senator Pryor. And if I am not mistaken, in Arkansas, we 
don't have a Base Flood Elevation. It is not determined. Is 
that right?
    Mr. Maidment. Well, the determination of whether a map has 
a Base Flood Elevation or not is made----
    Senator Pryor. And can you tell us the significance of that 
as you are explaining what it means?
    Mr. Maidment. OK. So Base Flood Elevation is that elevation 
that the water will achieve when a 1 percent annual flood 
happens. So if the 100-year flood happens, it refers to the 
water service elevation above a geodetic data. I mean, that is 
what the term Base Flood Evaluation means.
    The significance of that is the term that is used by local 
entities for regulating floodplain development. So the houses 
have to have their base--their first floor elevation above the 
Base Flood Elevation, sometimes just immediate or sometimes a 
foot above the Base Flood Elevation.
    Senator Pryor. OK. Well, we have--I guess on this map, I am 
looking at Zone A. It says, no Base Flood Elevation determined, 
but then Zone AE, it said Base Flood Elevation is determined.
    Mr. Maidment. That is right. So AE means you have Base 
Flood Elevations and A means you don't.
    Senator Pryor. OK. Based on that Base Flood Elevation 
designation, do other things happen as a result of that, or is 
that just pretty much local building codes and zoning, things 
like that?
    Mr. Maidment. Yes, it is basically to support local 
building codes and zoning.
    Senator Pryor. OK. Well, you all have been great. Oh, I did 
have one more question for you, Dr. Maidment, and that is you 
talked about the U.S. Geological Survey----
    Mr. Maidment. Mm-hmm.
    Senator Pryor. And apparently they had done a lot of maps 
in the past and they have a pretty old average age at this 
point.
    Mr. Maidment. Mm-hmm.
    Senator Pryor. Is there a reason why they didn't do these 
maps here for this round? Do you know why the Corps of 
Engineers did that and not U.S. Geological Survey?
    Mr. Maidment. No, sir, I don't.
    Senator Pryor. OK. Do you know who is better at making 
maps, or are both good at their own map making? I mean----
    Mr. Maidment. Well, I would say the two agencies have 
different responsibilities. The fundamental contribution of the 
U.S. Geological Survey is the base map input information. So, 
in other words, in a flood map you have three things. It is 
where are things horizontally, where are they vertically, and 
the USGS supplies basic information that defines that. Then you 
put the water layer on top, and that is where the Corps of 
Engineers and FEMA come in. It is that hydrology expertise that 
supplies the third piece of the puzzle.
    Senator Pryor. OK. Well, that is helpful.
    I want to thank all of you for your testimony today. What 
we are going to do is we are going to leave the record open 
here for 15 days, and I can almost guarantee you each of you 
will get questions, as well as the earlier panel will get 
follow-up questions from the Committee, either folks who are 
here today or who couldn't be here today, and we would love to 
get those responses from you as quickly as possible.
    I just want to thank you all for your attendance and your 
preparation and the time. This is an important issue. It is not 
just a local issue, it is a national issue, and we appreciate 
all your contributions to it.
    So with that, I will adjourn the meeting and thank you for 
your help.
    [Whereupon, at 5:09 p.m., the Subcommittees were 
adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T8405.001

[GRAPHIC] [TIFF OMITTED] T8405.002

[GRAPHIC] [TIFF OMITTED] T8405.003

[GRAPHIC] [TIFF OMITTED] T8405.004

[GRAPHIC] [TIFF OMITTED] T8405.005

[GRAPHIC] [TIFF OMITTED] T8405.007

[GRAPHIC] [TIFF OMITTED] T8405.008

[GRAPHIC] [TIFF OMITTED] T8405.009

[GRAPHIC] [TIFF OMITTED] T8405.010

[GRAPHIC] [TIFF OMITTED] T8405.011

[GRAPHIC] [TIFF OMITTED] T8405.012

[GRAPHIC] [TIFF OMITTED] T8405.013

[GRAPHIC] [TIFF OMITTED] T8405.014

[GRAPHIC] [TIFF OMITTED] T8405.015

[GRAPHIC] [TIFF OMITTED] T8405.016

[GRAPHIC] [TIFF OMITTED] T8405.017

[GRAPHIC] [TIFF OMITTED] T8405.018

[GRAPHIC] [TIFF OMITTED] T8405.019

[GRAPHIC] [TIFF OMITTED] T8405.020

[GRAPHIC] [TIFF OMITTED] T8405.021

[GRAPHIC] [TIFF OMITTED] T8405.022

[GRAPHIC] [TIFF OMITTED] T8405.023

[GRAPHIC] [TIFF OMITTED] T8405.024

[GRAPHIC] [TIFF OMITTED] T8405.025

[GRAPHIC] [TIFF OMITTED] T8405.026

[GRAPHIC] [TIFF OMITTED] T8405.027

[GRAPHIC] [TIFF OMITTED] T8405.028

[GRAPHIC] [TIFF OMITTED] T8405.029

[GRAPHIC] [TIFF OMITTED] T8405.030

[GRAPHIC] [TIFF OMITTED] T8405.031

[GRAPHIC] [TIFF OMITTED] T8405.032

[GRAPHIC] [TIFF OMITTED] T8405.033

[GRAPHIC] [TIFF OMITTED] T8405.034

[GRAPHIC] [TIFF OMITTED] T8405.035

[GRAPHIC] [TIFF OMITTED] T8405.036

[GRAPHIC] [TIFF OMITTED] T8405.037

[GRAPHIC] [TIFF OMITTED] T8405.038

[GRAPHIC] [TIFF OMITTED] T8405.039

[GRAPHIC] [TIFF OMITTED] T8405.040

[GRAPHIC] [TIFF OMITTED] T8405.041

[GRAPHIC] [TIFF OMITTED] T8405.042

[GRAPHIC] [TIFF OMITTED] T8405.043

[GRAPHIC] [TIFF OMITTED] T8405.044

[GRAPHIC] [TIFF OMITTED] T8405.045

[GRAPHIC] [TIFF OMITTED] T8405.046

[GRAPHIC] [TIFF OMITTED] T8405.047

[GRAPHIC] [TIFF OMITTED] T8405.048

[GRAPHIC] [TIFF OMITTED] T8405.049

[GRAPHIC] [TIFF OMITTED] T8405.050

[GRAPHIC] [TIFF OMITTED] T8405.051

[GRAPHIC] [TIFF OMITTED] T8405.052

[GRAPHIC] [TIFF OMITTED] T8405.053

[GRAPHIC] [TIFF OMITTED] T8405.054

[GRAPHIC] [TIFF OMITTED] T8405.055

[GRAPHIC] [TIFF OMITTED] T8405.056

[GRAPHIC] [TIFF OMITTED] T8405.057

[GRAPHIC] [TIFF OMITTED] T8405.058

[GRAPHIC] [TIFF OMITTED] T8405.059

[GRAPHIC] [TIFF OMITTED] T8405.060

[GRAPHIC] [TIFF OMITTED] T8405.061

[GRAPHIC] [TIFF OMITTED] T8405.062

[GRAPHIC] [TIFF OMITTED] T8405.063

[GRAPHIC] [TIFF OMITTED] T8405.064

[GRAPHIC] [TIFF OMITTED] T8405.065

[GRAPHIC] [TIFF OMITTED] T8405.066

[GRAPHIC] [TIFF OMITTED] T8405.067

[GRAPHIC] [TIFF OMITTED] T8405.068

[GRAPHIC] [TIFF OMITTED] T8405.069

[GRAPHIC] [TIFF OMITTED] T8405.070

[GRAPHIC] [TIFF OMITTED] T8405.071

[GRAPHIC] [TIFF OMITTED] T8405.072

[GRAPHIC] [TIFF OMITTED] T8405.073

[GRAPHIC] [TIFF OMITTED] T8405.074

[GRAPHIC] [TIFF OMITTED] T8405.075

[GRAPHIC] [TIFF OMITTED] T8405.076

[GRAPHIC] [TIFF OMITTED] T8405.077

[GRAPHIC] [TIFF OMITTED] T8405.078

[GRAPHIC] [TIFF OMITTED] T8405.079

[GRAPHIC] [TIFF OMITTED] T8405.080

[GRAPHIC] [TIFF OMITTED] T8405.081

[GRAPHIC] [TIFF OMITTED] T8405.082

[GRAPHIC] [TIFF OMITTED] T8405.083

[GRAPHIC] [TIFF OMITTED] T8405.084

[GRAPHIC] [TIFF OMITTED] T8405.085

[GRAPHIC] [TIFF OMITTED] T8405.086

[GRAPHIC] [TIFF OMITTED] T8405.087

[GRAPHIC] [TIFF OMITTED] T8405.088

[GRAPHIC] [TIFF OMITTED] T8405.089

[GRAPHIC] [TIFF OMITTED] T8405.090

[GRAPHIC] [TIFF OMITTED] T8405.091

[GRAPHIC] [TIFF OMITTED] T8405.092

[GRAPHIC] [TIFF OMITTED] T8405.093

[GRAPHIC] [TIFF OMITTED] T8405.094

[GRAPHIC] [TIFF OMITTED] T8405.095

[GRAPHIC] [TIFF OMITTED] T8405.096

[GRAPHIC] [TIFF OMITTED] T8405.097

[GRAPHIC] [TIFF OMITTED] T8405.098

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
